<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:20 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran, (chairman) 
presiding.
    Present: Senators Cochran, Specter, Byrd, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

 Office of the Under Secretary for Emergency Preparedness and Responses

STATEMENT OF MICHAEL D. BROWN, UNDER SECRETARY, 
            EMERGENCY PREPAREDNESS AND RESPONSE 
            DIRECTORATE

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter [presiding]. Good morning, ladies and 
gentlemen.
    I was attending a Judiciary Committee executive session 
upstairs where we are trying to move forward on the 
confirmation of many judges, when I heard that this hearing 
lacked a Republican. It should not be too hard to find a 
Republican in the Senate complex on a Thursday morning. And 
then I received a summons from Senator Byrd. Now, a summons 
from Senator Byrd is not quite like a subpoena.
    But it is close. And you know what happens when you do not 
respond to a subpoena. There is a bench warrant, and that could 
be very serious. So, I left the Judiciary Committee exec room 
to convene this hearing. I am going to have to return shortly.
    Today this subcommittee will continue the review of the 
fiscal year 2005 budget request for the Department of Homeland 
Security. We are pleased to welcome the Under Secretary of the 
Emergency Preparedness and Response Directorate, Mr. Mike 
Brown. We will review this year's budget request and work with 
you, Mr. Brown.

                           PREPARED STATEMENT

    Homeland security is obviously a top priority for this 
country, reflected in the President's budget request for an 
increase of 9.7 percent, whereas the discretionary funding got 
only a half of 1 percent, defense some 7 percent.
    Without objection, the full statement, which had been 
prepared for Senator Cochran will be included in the record, 
and we now turn to your testimony.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    The hearing will come to order.
    Today we continue our review of the fiscal year 2005 budget request 
for the Department of Homeland Security.
    I am pleased to welcome to this hearing the Under Secretary of the 
Emergency Preparedness and Response Directorate, Mike Brown.
    Our Committee will work hard to provide the funds this Directorate 
needs to carry out its responsibilities and perform its mission 
successfully.
    We thank you for submitting a copy of your statement in advance of 
this hearing. It will be made a part of the record, and we invite you 
to make any comments you think would be helpful to the committee's 
understanding of the budget request.
    Now, I will yield to Senator Byrd and other Sentors who may wish to 
make opening statements.

    Senator Specter. Excuse me. The custom is to call on the 
ranking member, the ranking member of the full committee, 
former President Pro Tempore, chairman of the full committee, 
and so many titles. If I went through them, you would not have 
any time left, Mr. Brown.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you. America has done some great 
things. It put a man on the moon, brought him back to earth 
safely again, but it has never been able to produce a truly 
good loudspeaker system.
    I appreciate your kind remarks about me. Plato thanked the 
gods for having been born a man, for having been born a Greek, 
and for having lived in the age of Socrates. I thank the gods 
for permitting me to live in the same age and serve at the same 
time in the United States Senate with a chairman and also a 
Pennsylvania Senator on this committee who presided over this 
committee with such dignity and skill. I thank Senator Specter 
for his remarks.
    Mr. Chairman, the Senator from Pennsylvania had turned to 
me for a statement. May I proceed?
    Senator Cochran [presiding]. Please.
    Senator Byrd. Welcome, Mr. Brown. No relation to Jimmy 
Brown, the newsboy of this town, but a good man nevertheless.
    In April of last year, when you testified before this 
subcommittee, I asked you how Congress could be sure that the 
agencies merged into the new Department of Homeland Security 
with specific missions unrelated to homeland security, such as 
preventing and responding to natural disasters, would have the 
resources to accomplish their missions. In your response, you 
assured the committee that FEMA would continue--and I quote--
``to protect our Nation's institutions from all types of 
hazards through a comprehensive, risk-based, all-hazards 
approach.''

                     ALL-HAZARDS EMERGENCY PLANNING

    In your written testimony today, you stress a continued 
commitment to all-hazards emergency planning, but frankly, as I 
see it, the President's policies ignore that commitment. I will 
repeat that again. As I see it, the President's policies ignore 
that commitment.
    States and local communities look to FEMA to provide the 
resources and expertise that they need to meet a wide range of 
challenges. Today, possibly more than ever before, our States 
and local communities have to be ready to cope with disasters 
such as floods, earthquakes, chemical incidents, disease in our 
food supply, and other public health emergencies. Given the 
events of 9/11, States and communities must also prepare for 
preventing or responding to terrorist attack. And this is why a 
focus on all-hazards preparedness is so important.
    However, rather than embrace the all-hazards approach to 
emergency planning, the President's budget undermines it. 
Rather than develop the capacity to respond to a terrorist 
attack within the framework of all-hazards planning, the 
President's budget, in essence, mandates that State and local 
governments give priority to anti-terrorism programs at the 
expense of other potential disasters.

TRANSFER OF SEVERAL ALL-HAZARDS PROGRAMS FROM FEMA INTO A NEW OFFICE OF 
        STATE AND LOCAL GOVERNMENT COORDINATION AND PREPAREDNESS

    The Administration proposes to transfer several all-hazards 
programs out of FEMA and into a new Office of State and Local 
Government Coordination and Preparedness. That office's 
mandate, as laid out in the Homeland Security Act, is to help 
State and local governments effectively combat terrorism.
    Under the consolidation proposal announced by the Secretary 
on January 26, 2004, and under the President's budget proposal 
for fiscal year 2005, emergency management performance grants, 
community emergency response team grants, and the metropolitan 
medical response system will all be shifted into this newly 
expanded office. And yet, this new office does not have the 
expertise or the regional staff experienced in all-hazards 
planning. FEMA has that expertise.
    Yesterday I joined with Representative Martin Sabo, the 
ranking member of the House Appropriations Homeland Security 
Subcommittee, in sending a letter to Secretary Ridge urging him 
not to proceed with the reorganization of the emergency 
management performance grants and community emergency response 
team programs, along with several Transportation Security 
Administration programs.

                  PROPOSED CUTS TO FIRE GRANTS FUNDING

    Furthermore, the administration proposes to cut funding for 
fire grants by $246 million and emergency management 
performance grants by $9 million and, at the same time, mandate 
that States give priority to terrorism preparedness. This is a 
squeeze play that States cannot afford.
    I will give you a rhetorical question at this point. Where 
do these policies leave a small town fire department in West 
Virginia or Mississippi, or other rural States, that needs to 
purchase breathing apparatus or equipment to deal with a 
chemical spill? We have one of the largest chemical complexes 
in this country, in the Western Hemisphere as a matter of fact, 
in the Kanawha Valley. So this comes home to us in West 
Virginia.

PROPOSAL TO LIMIT THE AMOUNT OF EMERGENCY MANAGEMENT FUNDS THAT CAN BE 
                           SPENT ON SALARIES

    The President also proposes to limit the amount of 
emergency management funds that can be spent on salaries. This 
provision would drive a stake through the heart of State and 
local all-hazards planning efforts.

                       TERRORIST ATTACK CONCERNS

    I am as concerned as anyone about the possibility of future 
terrorist attacks, but I am also greatly concerned that 
preparing for such an attack will come at the expense of 
preparing for other types of disasters if this administration's 
budget proposal is enacted.
    There are elements in the budget request that are 
praiseworthy. The Administration is again requesting $200 
million for the flood map modernization initiative. This 
initiative is so important to flood-prone States such as West 
Virginia. I am also pleased to see an adequate and timely 
budget request for the disaster relief fund. Last year we came 
very close to running out of money in the disaster relief fund 
and nobody--not even OMB it seems--wants to go through that 
again this year.
    Also, the Administration's budget recognizes the importance 
of pre-disaster and post-disaster mitigation funds. Post-
disaster mitigation funds help communities pay for mitigation 
activities right after a disaster occurs, when communities have 
the will and the momentum to complete such projects. I hope we 
can do even more post-disaster mitigation in the future.
    West Virginia endured four Federally declared disasters 
last year. No State is more grateful for, and no State is more 
in need of, FEMA's programs and expertise than West Virginia. 
And I want to compliment you on the excellent work that you and 
your staff have done. You have not failed us in West Virginia 
where we are very keenly aware of and live often with disasters 
that are not manmade.
    So, I look forward to hearing your testimony, Mr. Under 
Secretary, and to working with you to preserve FEMA's all-
hazards planning programs.
    And I thank you, Mr. Chairman, for your patience and 
kindness.
    Mr. Brown. Thank you, Senator.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman.
    Thank you so much. I join my colleagues in welcoming you 
here today. You have a tremendous task before you and I thank 
you for your service.

                        FIRST RESPONDER FUNDING

    My colleague, Senator Byrd, discussed the more visible 
issues regarding first responder funding. I too am very 
concerned about the proposal to shift the homeland security 
grants into the Office of Domestic Preparedness. Streamlining 
these programs is a key element to ensure our local communities 
get the needed resources in a timely manner, but the programs 
that are traditionally supported by TSA and FEMA I do not 
believe should be forced to compete with our first responders 
for funding.
    I am also really concerned that the President's budget 
request cuts State grants for first responders by $990 million. 
It cuts training for first responders by $103 million and 
eliminates the COPS program. That is almost $2 billion in cuts 
for first responders nationwide at a time when our State and 
local budgets just do not have the capacity to absorb those 
additional costs. So, I am very concerned about that. I am 
confident that Congress will prevent this administration from 
decimating those essential first responder programs and I want 
my colleagues to know that I will work with them to restore 
that.
    I do have a number of questions for you and I will wait for 
my time. But thank you very much, Mr. Chairman, for this 
hearing.
    Senator Cochran. Thank you, Senator.
    Mr. Brown, we have a copy of your statement which we 
appreciate very much your submitting to the committee in 
advance of the hearing. It will be made a part of the record in 
full. We encourage you to make whatever comments you would like 
to make in support of the budget request that will be helpful 
to our understanding of the request. You may proceed.

                     STATEMENT OF MICHAEL D. BROWN

    Mr. Brown. Well, thank you very much, Mr. Chairman, and 
Senator Byrd, thank you for your kind comments, and Senator 
Murray, you also.
    My name is Michael Brown. I am the Under Secretary for 
Emergency Preparedness and Response of the Department of 
Homeland Security. I am, indeed, honored to appear before you 
today to talk about FEMA's accomplishments over the past year 
since we became a part of the Department of Homeland Security. 
But more importantly, I want to highlight some of our 
priorities for fiscal year 2004 and discuss why support of the 
President's budget request for 2005 is critical to ensure that 
FEMA can continue to fulfill its traditional mission.
    FEMA has undergone changes since becoming a part of 
Homeland Security, both externally and internally, but we have 
not changed our focus. As part of the Homeland Security 
Department, FEMA has continued the tradition of responding to 
help disaster victims and those in need wherever disaster or 
emergencies strike.
    On March 1, FEMA will celebrate its first full year as a 
part of the Department of Homeland Security. We are proud to be 
part of this historic effort and are more committed than ever 
to do our duty as defenders of the homeland. We believe that 
the Federal-wide consolidation of all-hazards preparedness, 
mitigation, response, and recovery programs brings real benefit 
to the American public.

                    FISCAL YEAR 2003 ACCOMPLISHMENTS

    In fiscal year 2003, FEMA responded to 62 major disasters 
and 19 emergencies, covering 35 States, 4 U.S. territories, and 
the District of Columbia. These disasters included the record 
number of tornadoes in the Midwest, the unfortunate loss of the 
Space Shuttle Columbia, Hurricane Isabel, and the absolutely 
devastating wildfires in California. In fiscal year 2003, FEMA 
obligated nearly $2.9 billion in fiscal year 2003 disaster 
funds to aid people, victims and communities that were 
overwhelmed by these disasters.

                         FISCAL YEAR 2004 PLANS

    In fiscal year 2004, FEMA is focusing on our five major 
program areas: mitigation, preparedness, response, recovery, 
and national security.
    Our mitigation efforts center on modernizing our Nation's 
flood maps, providing pre-disaster mitigation grants and 
enhancing the national flood insurance program.
    In the Preparedness Division, we will support the 
Department's efforts to put into place a national incident 
management system that will help improve coordination of 
disaster response at all levels, and we will also publish 
mutual aid system development, credentialing, and equipment 
interoperability standards.
    In 2004, our response capabilities continue to grow as we 
field enhanced response teams and resources, improve our 
response times, put into place plans for catastrophic events, 
and improve our training. For those impacted by disasters, FEMA 
continues to provide appropriate and effective disaster 
recovery assistance.
    Finally, we are ensuring that the FEMA national security 
program has adequately staffed, trained, equipped, and 
exercised the continuity of operations and the continuity of 
Government programs.

                    FISCAL YEAR 2005 BUDGET REQUEST

    Looking ahead to fiscal year 2005, the President's budget 
request is critical to ensuring that FEMA can continue to 
fulfill its traditional mission. The President's budget again 
requests $150 million for the pre-disaster mitigation program 
to help minimize the devastation caused by natural disasters.
    The budget also requests $200 million to continue the 
replacement and modernization of the Nation's flood insurance 
rate maps, and includes $7 million in new budget authority for 
the development and implementation of the national incident 
management system as part of the national response plan. These 
two initiatives will ensure that all levels of government 
across the Nation are prepared to work together efficiently and 
effectively employing a single national approach to domestic 
incident management.
    The President's budget request includes $8 million in new 
budget authority for four incident management teams to act as 
the core field level response management teams for major 
disasters, emergencies, and acts of terrorism.
    The President's budget also provides $2.9 billion for 
disaster relief, a level consistent with the average non-
terrorist disaster costs over the past 5 years.
    I can assure you, Senators, that President Bush appreciates 
the importance of recovery. I had the distinct honor of joining 
the President in touring Missouri last spring after the 
devastating tornadoes struck Pierce City, Missouri. It was 
absolutely a downpour. The President gets out of the car, and 
goes over to visit with a couple who were standing in front of 
their damaged storefront. This couple also had damages to their 
home, but using FEMA's temporary housing, our immediate needs 
assistance, their insurance, and SBA home and business loans, 
this couple is now recovering. The President recognizes the 
importance of this type of all-hazards planning, as evidenced 
by his $2.1 billion request for the disaster relief fund.

                OFFICE OF NATIONAL SECURITY COORDINATION

    In fiscal year 2005, FEMA's Office of National Security 
Coordination will also continue to carry out its mandated 
mission to provide executive agent leadership, to ensure 
continuity of national operations in response to all-hazards 
emergencies in order to guarantee the survival of an enduring 
constitutional government.
    In summary, during the last year, FEMA has continued to 
carry out its traditional mission. Successful implementation of 
the new initiatives and the ongoing activities I have discussed 
today will improve our national system of mitigating against, 
preparing for, responding to, and recovering from disasters and 
emergencies caused by all hazards.

                           PREPARED STATEMENT

    In closing, on a personal note, I want to thank you, Mr. 
Chairman, Senator Byrd, Senator Murray, for the absolute 
wonderful support that you have given FEMA over the past years. 
I would be happy to answer any questions that you might have at 
this time.
    [The statement follows:]

                 Prepared Statement of Michael D. Brown

Introduction
    Good morning Mr. Chairman and Members of the Subcommittee. I am 
Michael Brown, Under Secretary for the Emergency Preparedness and 
Response Directorate (EP&R) of the Department of Homeland Security 
(DHS), which includes the Federal Emergency Management Agency (FEMA).
    I am honored to appear before you today to talk about FEMA's 
accomplishments of this past year since it has become part of the 
Department of Homeland Security. More importantly I want to highlight 
our priorities for fiscal year 2004 and why support of the President's 
Budget request for fiscal year 2005 is critical to insure that FEMA can 
continue to fulfill its traditional role of preparing for, mitigating 
against, responding to, and recovering from disasters and emergencies 
caused by all hazards.
    FEMA has undergone significant changes since becoming part of DHS--
both external and internal--but it has not changed its focus. As part 
of DHS, FEMA continues its tradition of responding to help disaster 
victims and those in need whenever disasters or emergencies strike.

Transition into the Department of Homeland Security
    On March 1st, FEMA will celebrate its first full year as part of 
the Department of Homeland Security. We are proud to be part of this 
historic effort and are more committed than ever to our duty as 
defenders of the Homeland. We made significant strides in our first 
year as a component of the Department, and we continue to see the 
advantage of and realize benefits from being part of a larger 
organization. We believe that the Federal-wide consolidation of all-
hazards preparedness, mitigation, response, and recovery programs 
brings real benefit to the American public.
    Since March 1st of last year, FEMA has worked to merge disaster-
related public health programs from the Department of Health and Human 
Services (DHHS) into a comprehensive and unified national response 
capability. These programs include the National Disaster Medical System 
(NDMS), which is designed to provide a single, integrated, national 
medical response capability to augment the Nation's emergency medical 
response capability when needed for major disasters and Federally 
declared emergencies. Another important public health-related program, 
the Strategic National Stockpile (SNS), maintains large quantities of 
essential medical items that can be provided for the emergency health 
security of the United States in the event of a bioterrorist attack or 
other public health emergency and to support State and local 
communities during emergencies.
    FEMA also successfully merged a multiplicity of other disaster 
response teams and assets from different departments and agencies to 
create a unified national response capability within the Department of 
Homeland Security. Among these teams and assets, now merged within 
FEMA's Response Division, are the:
  --National Disaster Medical System,
  --Domestic Emergency Support Team, and
  --Strategic National Stockpile
    FEMA has also been given operational control of the Nuclear 
Incident Response Team in certain circumstances, including the event of 
an actual or threatened terrorist attack.
    As we settle into DHS, we continue to leverage the extensive 
experience and capabilities of the Department's other components. For 
example, in responding to Hurricane Isabel, we received aerial imaging 
and aviation support from our friends at Immigration and Customs 
Enforcement (ICE) and the U.S. Coast Guard. We are partnering with the 
Information Analysis and Infrastructure Protection Directorate to 
improve our damage prediction and resource placement decisions and to 
take advantage of their critical infrastructure resources and 
expertise. We look forward to continuing and increasing such 
cooperation in the future.

Fiscal Year 2003 Accomplishments
    In fiscal year 2003, the Federal Emergency Management Agency (FEMA) 
obligated nearly $2.9 billion in disaster funds to aid people and 
communities overwhelmed by disasters, including floods, ice and winter 
storms, wildfires, tornadoes, hurricanes, typhoons, and tropical 
storms. In addition, FEMA obligated $6.8 billion to fund projects 
associated with the September 11 response. Overall, FEMA responded to 
62 major disasters and 19 emergencies in 35 States, 4 U.S. Territories 
and the District of Columbia. These events included the record Midwest 
tornadoes, Super Typhoon Pongsona and Hurricanes Claudette and Isabel. 
The 19 emergencies declared in 2003 included the loss of the Space 
Shuttle Columbia, the President's Day snowstorm, and the Northeast 
power outages.
    While the California fires in October left an indelible mark in our 
memories, the Nation's fire season in 2003 was not as busy, with 
exceptions, in Montana and Arizona. But in the areas impacted, the 
fires were devastating and severe. In fiscal year 2003, FEMA approved 
assistance for 34 fires in 11 States, compared with 83 fires in 19 
States in fiscal year 2002.
    In fiscal year 2003, Congress supported the President's efforts to 
promote disaster mitigation, through the creation and funding of two 
important initiatives: the Pre-Disaster Mitigation Grant Program and 
the Flood Map Modernization Program. Great strides have been made in 
both of these areas in the last year. These two programs will 
ultimately result in the reduced loss of life and property throughout 
our Nation.
    FEMA's Preparedness Division awarded more than $160 million in 
Emergency Management Performance Grants to the States to maintain and 
improve the national emergency management system. To date, the United 
States Fire Administration has awarded over $650 million in grants to 
fire departments across the Nation as part of the Assistance to 
Firefighters Grant Program. Both of these programs are now requested in 
the Office for Domestic Preparedness (ODP) portion of the Department's 
budget for fiscal year 2005 and we are working very closely with ODP on 
transferring these programs. FEMA also provided a total of 17 
interoperable communications equipment grants for $79.57 million, and 
the Emergency Management Institute, the National Fire Academy (NFA) and 
the Noble Training Center together trained more than 290,000 fire and 
emergency management and response personnel nationwide.
    In our response to Hurricane Isabel, last September, we 
demonstrated a more forward-leaning and proactive response posture and 
made every effort to improve communication, coordination and timely 
delivery of critical disaster supplies. FEMA increased the frequency of 
daily video teleconferences with the impacted States and meteorological 
and river forecasting centers, jointly planned response actions with 
the States, pre-positioned materials, and opened multiple staging areas 
and mobilization centers in anticipation of response needs. These and 
other changes we have made allow us to continue to improve Federal 
disaster response efforts. We will continue to take advantage of the 
lessons learned and best practices from Isabel and other disasters, and 
apply them in our programs to change the impact of future events.
    Also during fiscal year 2003, FEMA launched the Continuity of 
Operations Readiness Reporting System, a single automated system that 
allows Federal Executive Branch departments and agencies to report the 
state of their Continuity of Operations capabilities and readiness. The 
System has been tested and will be fielded this year. In addition to 
technology upgrades and improvements, FEMA's Office of National 
Security Coordination maintained a 24/7 operational readiness 
capability in support of National Security programs, including the 
initial planning and coordination for an interagency Continuity of 
Operations exercise, Exercise Forward Challenge 2004, to take place 
later this year.

Fiscal Year 2004 Priorities
    In fiscal year 2004, FEMA is focusing on its five major program 
areas: Mitigation, Preparedness, Response, Recovery, and National 
Security.
    Our Mitigation efforts center on modernizing our Nation's flood 
maps, providing Pre-Disaster Mitigation (PDM) grants, and enhancing the 
National Flood Insurance Program (NFIP). For Map Modernization over 300 
mapping projects, valued at approximately $85 million, were launched 
nationwide in fiscal year 2003 and we are working with State and local 
representatives to identify projects for fiscal year 2004. The PDM 
grants will again provide stable funding to assist State and local 
governments to reduce risks. The number of NFIP policies will be 
increased by 5 percent.
    Our Preparedness Division will support the Department's efforts to 
put into place a National Incident Management System (NIMS) that will 
help improve coordination of disaster response at all levels. In 
addition, we will publish Mutual Aid System Development, Credentialing 
and Equipment Interoperability Standards. Our support for training and 
exercises continues to enhance the Nation's emergency management 
capabilities and increasing fire preparedness remains a central 
mission.
    In 2004, our Response capabilities continue to grow. We will field 
enhanced response teams and resources, improve our response times, put 
plans into place for catastrophic events, and improve our training. We 
will continue to consolidate and integrate all of our different 
disaster response programs, teams, and assets; design new approaches; 
and implement new efficiencies that will result in a more unified, 
integrated, and comprehensive approach to all-hazards disaster 
response. We want to elevate our operational response capabilities to a 
whole new level of proficiency, one that will further the principles of 
the National Response Plan (NRP) and the National Incident Management 
System (NIMS) to better serve the American people.
    For those impacted by disasters, FEMA continues to provide 
appropriate and effective disaster recovery assistance. Simultaneously, 
we continue to focus on re-designing our Public Assistance Program and 
developing a catastrophic incident housing recovery strategy. These 
efforts will enhance our current capabilities and better position us to 
recover from a catastrophic event.
    Finally, we are ensuring that the FEMA National Security Program 
has adequately staffed, trained, equipped, and exercised Continuity of 
Operations (COOP) and Continuity of Government (COG) programs to 
guarantee the survival of Enduring Constitutional Government.

Fiscal Year 2005 Budget Highlights
    The President's fiscal year 2005 Budget for FEMA:
  --Assumes a $2.9 billion spending level for disaster relief--a level 
        consistent with the average non-terrorist disaster costs over 
        the past 5 years. This includes more than $2.1 billion in new 
        disaster funds, as well as funds expected to remain available 
        from prior years. This is over $300 million more than the 
        fiscal year 2004 appropriation.
  --Continues implementation of Project BioShield, which encourages the 
        development and purchase of necessary medical countermeasures 
        against weapons of mass destruction. Through an advance 
        appropriation, $2.5 billion is made available beginning in 
        fiscal year 2005. These funds will be obligated through fiscal 
        year 2008.
  --Includes $20 million in new budget authority for planning and 
        exercises associated with improving medical surge capabilities.
  --Includes $8 million in new budget authority for four Incident 
        Management Teams (IMTs) to act as the core, field-level 
        response teams for major disasters, emergencies, and acts of 
        terrorism.
  --Includes $7 million in new budget authority for development and 
        implementation of the National Incident Management System 
        (NIMS), specially designed to provide a basic framework of 
        organization, terminology, resource identification and typing; 
        training and credentialing; and communications protocols to 
        deal effectively with incidents of all sizes and complexities 
        involving Federal, State, and local governments, Tribal 
        Nations, and citizens.
  --Continues the President's Pre-Disaster Mitigation program, which 
        helps to minimize the devastation caused by natural disasters 
        through a competitive grant process that supports well-designed 
        mitigation projects. In fiscal year 2005, we will initiate 
        post-disaster evaluations to begin documenting losses avoided 
        and assessing program impact.
  --Continues the replacement and modernization of the Nation's Flood 
        Insurance Rate Maps.
  --Transfers the Strategic National Stockpile to DHHS. As a result of 
        the transfer, $400 million is moved to DHHS to maintain the 
        stockpile and strengthen its future capacity with new and 
        needed medical products as soon as they become available.
  --Transfers the Emergency Food and Shelter Program to the Department 
        of Housing and Urban Development.

Mitigation
    FEMA's mitigation programs are an essential part of the Department 
of Homeland Security's charge to protect the lives and property of 
Americans from the effects of disasters. Mitigation programs provide us 
the opportunity not only to develop plans to reduce risks, but more 
importantly, to implement those plans before disaster strikes.
    In previous years, Congress supported the President's efforts to 
promote disaster mitigation by creating and funding two initiatives:
  --Pre-Disaster Mitigation Grants, and
  --Flood Map Modernization.
    The intent of the Pre-Disaster Mitigation Grants is to provide a 
consistent source of funding to State, local, and Tribal governments 
for pre-disaster mitigation planning and projects that primarily 
address natural hazards. The plans and projects funded by this program 
reduce overall risks to the populations and structures, while reducing 
reliance on funds from Federal disaster declarations. The competitive 
nature of the Pre-Disaster Mitigation Program encourages communities to 
assess their risks, to evaluate their vulnerabilities, and to implement 
mitigation activities before a disaster strikes. This budget proposes 
support for both pre-disaster and post-disaster mitigation assistance.
    The Flood Map Modernization Program provides the capability to 
broaden the scope of risk management. This enables more expansive use 
of the geospatial base data needed to develop the flood maps. 
Communities, lenders, insurance agents, and others use the maps and the 
flood data approximately 20 million times a year to make critical 
decisions on land development, community redevelopment, insurance 
coverage, and insurance premiums. As flood hazard data is updated, the 
current flood map inventory is being changed from a paper map system to 
a digital one. New technology will enhance the usefulness and 
availability of flood data to all customers. The new system also 
supports the development and distribution of geospatial data of all 
hazards, both natural and man-made.
    The fiscal year 2005 budget will continue to update flood maps 
nationwide and increase State and local capability to manage flood 
hazard data. By the end of fiscal year 2005, digital GIS flood hazard 
data covering 50 percent of our Nation's population will be available 
online.
    The National Flood Insurance Program (NFIP) has a significant 
impact on reducing and indemnifying this Nation's flood losses. Prior 
to the creation of the NFIP, floodplain management as a practice was 
not well established, and only a few states and several hundred 
communities actually regulated floodplain development. Flood insurance 
was not generally available. We are working diligently to refine and 
expand our all-hazards risk communication strategy to meet the goal of 
a 5 percent increase in NFIP policy ownership. This increase in 
insurance policy ownership will reduce reliance on the Disaster Relief 
Fund and will foster individual economic stability.

Preparedness
    FEMA's Preparedness Division helps ensure our Nation is prepared to 
respond to emergencies and disasters of all kinds. The Preparedness 
Division is responsible for Federal, State, local, and community 
emergency preparedness programs; assessments and exercises; grants 
administration; the Radiological Emergency Preparedness Program and the 
Chemical Stockpile Emergency Preparedness Program. The U.S. Fire 
Administration works to prevent fire deaths and damage to property, and 
carries out its mission through leadership, advocacy, coordination, and 
support. The training programs offered at the National Fire Academy and 
the Emergency Management Institute promote the professional development 
of command level firefighters, emergency managers, and emergency 
responders, and are an important aspect of the U.S. Fire 
Administration's duties.
    The Noble Training Center, located at Ft. McClellan, Alabama, is a 
new addition to FEMA. Transferred from DHHS in fiscal year 2003, the 
Noble Training Center is the only hospital facility in the United 
States devoted entirely to medical training for Weapons of Mass 
Destruction (WMD). In fiscal year 2005, Noble will continue to train 
medical personnel for State and local hospitals, emergency medical 
services, and the National Disaster Medical System.
    In fiscal year 2005, FEMA's Preparedness Division will work with 
other components of the Department to develop the National Incident 
Management System (NIMS) and the National Response Plan (NRP). These 
initiatives will ensure that all levels of government, across the 
Nation, work together efficiently and effectively, employing a single 
national approach to domestic incident management.
    FEMA's Preparedness Division will continue to provide the States 
with technical assistance in their all-hazards planning. To avoid 
duplicative planning, our efforts will be closely coordinated with 
those of the Office for Domestic Preparedness to update State terrorism 
preparedness plans.
    As part of our effort to prepare our citizens for all disasters, 
the Division will oversee the Community Emergency Response Teams, or 
CERT. This program, begun as a civilian training program by the Los 
Angeles Fire Department, has become a nationwide effort to train 
citizens in first aid and basic firefighting and emergency response 
techniques. CERT-trained citizens are able to provide those basic 
emergency services that would otherwise occupy the first responders. 
FEMA provides train-the-trainer programs to allow as many citizens as 
possible to receive this training across the country. The CERT program 
has grown from 170 teams in 28 States and Territories in March of 2002 
to over 900 teams in 51 States and Territories.

Response
    FEMA's Response Division is responsible for integrating national 
emergency response teams, systems and assets into a comprehensive and 
fully coordinated, national capability that supports States and 
communities in responding to all types of disasters, including acts of 
terrorism. This is accomplished by arranging the necessary and 
appropriate national assets, establishing a consolidated national 
incident response system, and effectively coordinating strategic 
resources in full partnership with Federal, State, local, and tribal 
governments, the private sector, volunteers, and citizen partners.
    The fiscal year 2005 Response Division budget proposes to:
  --Create four Incident Management Teams (IMTs) and formulate plans 
        for full implementation in fiscal year 2006; the IMT is a 
        highly responsive and flexible response team that will be able 
        to quickly establish a strong Federal leadership capability in 
        any disaster environment or high threat situation, including 
        acts of terrorism involving the use of WMD;
  --Continue all-hazards catastrophic disaster response planning for 
        one additional U.S. city, based on the pilot disaster planning 
        template developed for New Orleans, Louisiana. The template 
        will be used in the future as a basis for all-hazards 
        catastrophic planning for other high risk areas of the country; 
        and
  --Continue efforts to develop the capability to provide intermediate 
        emergency housing aimed at meeting the needs of large numbers 
        of disaster victims displaced from their homes as a result of 
        large scale and catastrophic disasters
    FEMA's Response Division will also continue to implement measures 
to reduce response times for its teams and delivery of disaster 
supplies.
    Additional funding requested in fiscal year 2005 implements the 
National Incident Management System--NIMS. FEMA's goal for 2005 is to 
focus on the readiness of Federal response teams and the integration of 
Federal capabilities with that of State and local jurisdictions. We 
will conduct outreach to our Federal response partners and State and 
local counterparts to ensure connectivity and synchronization of 
response capabilities under NIMS, and will conduct NIMS and Incident 
Command System (ICS) training for Federal response teams. These 
activities will ensure we have the baseline skills for all teams to 
operate under NIMS and be fully integrated into the NIMS/ICS doctrine.
    As highlighted previously, the President's fiscal year 2005 budget 
proposes an initiative to develop FEMA's medical surge capability. 
Under this initiative, FEMA will evaluate supplemental capabilities for 
both a fixed and mobile facility to demonstrate the utility of using 
alternate facilities to support medical surge activities, as well as 
the utility of having a surge capacity that can be mobilized, 
transported, and made operational within set timelines. The second part 
of this initiative is to implement the concept through two pilot 
projects.

Recovery
    FEMA's Recovery Division leads and coordinates the timely delivery 
of Federal disaster assistance to individuals and communities.
    In fiscal year 2005, the Recovery Division will continue to provide 
assistance to individuals for temporary housing, damaged personal 
property, crisis counseling, disaster unemployment, and disaster legal 
services. FEMA responded to over 2.5 million calls last year, from 
people seeking to register for disaster assistance and to have their 
questions answered. The Recovery Division processed more than half a 
million individual disaster applications.
    The Individual Assistance Programs that meet victims' most basic 
needs provide assistance for housing, personal property losses, and 
medical and funeral expenses. In each disaster we ask our customers, 
the disaster victims, what they think of the service we provided to 
them. I am pleased to tell you that we consistently earn very high 
marks from our customers when they are surveyed. In fiscal year 2005 we 
will continue to invest in technology that ensures we continue to meet 
our customers' expectations.
    FEMA's Public Assistance Program, which accounts for the bulk of 
recovery expenditures out of the Disaster Relief Fund, is the primary 
means for community recovery. State and local governments and certain 
non-profit organizations can be reimbursed to repair facilities to 
their pre-disaster condition, as well as for costs associated with 
debris removal and emergency protective measures. FEMA is focusing on 
redesigning the Public Assistance Program to be more efficient and 
better prepared to meet the needs of a catastrophic or terrorist event 
by moving toward a web-based, user friendly, estimated based program, 
communities will be able to recover faster. In order to better prepare 
for the transition to a redesigned program, FEMA is establishing a 
methodology for estimating the total cost of large projects versus 
determining final costs after work is complete. Implementing the Public 
Assistance Program using cost estimates will allow State and local 
governments to better budget for recovery, improve our estimates of 
disaster expenditures, and reduce administrative costs and closeout 
timelines. In addition, we are working on proposed revisions to the 
Public Assistance Insurance Rule, which was last revised in 1991. The 
Stafford Act requires applicants for Public Assistance grants to 
``obtain and maintain'' insurance on a damaged facility as a condition 
of receiving assistance. In the past, there have been concerns about 
this rule imposing a pre-disaster insurance requirement for all 
hazards. The proposed rule will not require insurance before disaster 
strikes, except for flood insurance in identified flood hazard areas, 
as required by the Stafford Act. The purpose of the rule is to simply 
clarify issues not adequately addressed in the current rule, such as 
eligible deductibles.
    The Fire Management Assistance Grant Program is another key 
resource for States and local governments to mitigate, manage, and 
control forest or grassland fires to prevent damages that may otherwise 
result in a major disaster declaration.
    I assure you that President Bush appreciates the importance of 
Recovery. I had the honor of joining the President in touring Missouri 
last spring after the devastating tornadoes struck Pierce City. Even 
though it was pouring rain during our visit, the President got out of 
his car to go over and talk to a couple who were standing in front of 
their damaged store front. They also had damages to their home. Using 
FEMA's temporary housing, immediate needs assistance, their insurance, 
and SBA home and business loans, this couple is recovering.
    The massive California Wildfires of 2003 scorched over 750,000 
acres and claimed 24 lives. During the response to the wildfires, the 
President and Secretary Ridge wanted me to be intimately involved in 
the coordination efforts between the Federal agencies doing work there. 
Through the formation of a pair of interagency bodies, the Washington-
based California Fires Coordination Group and the field-level Multi-
Agency Support Group, FEMA's Recovery Division was instrumental in 
assuring that each of our Federal partners was coming to the table with 
comprehensive plans that were complementary to each other, that 
minimized the sort of bureaucratic ``stove piping'' that results in 
duplication of efforts, and that continued to focus on the needs 
identified by the State and local communities as priorities. Our shared 
success is the natural result of FEMA's commitment to ``all-hazards'' 
emergency management, and a focus on a scaled approach to meet the 
challenges of any kind of incident, from the floods, fires, and storms 
that happen all too often, to the catastrophic scenarios that we 
prepare for, but hope will never come to pass.
    We take our mission to help communities and citizens recover very 
seriously. My goal is to continue to do the work we do now better and 
faster, and to build on our current recovery capabilities to be better 
prepared to face a catastrophic natural or terrorist event.

National Security
    In fiscal year 2005, FEMA's Office of National Security 
Coordination will continue to carry out its mandated mission to provide 
Executive Agent leadership to ensure continuity of national operations 
in response to all-hazard emergencies in order to guarantee the 
survival of an enduring constitutional government. Funding in fiscal 
year 2005 will be used to ensure that all Federal Executive Branch 
departments and agencies attain and maintain a fully operational 
Continuity of Operations (COOP) capability. FEMA will provide 
assistance to Federal departments and agencies to help them attain and 
maintain fully operational contingency capabilities. FEMA will develop 
and implement a test, training, and exercise program that culminates in 
a complete exercise of the Continuity of Government (COG) program. In 
addition, we will provide technical support and guidance to our 
interagency, regional, State and local stakeholders across the Nation.

Conclusion
    During the last year, FEMA has been busy but we continue to carry 
out our mission to prepare for, mitigate against, respond to, and 
recover from disasters and emergencies caused by all-hazards. The key 
to our continued improvement will be to take the lessons learned from 
previous disasters and incorporate them into our preparedness, 
planning, and procedures, so that we do an even better job of 
responding next time. We evaluate the lessons learned from each 
disaster and make plans to incorporate the new approaches and remedy 
problems. Hurricane Isabel provided such an opportunity, and it 
validated our priority to reduce disaster response times and improve 
our capability to gather information and effectively and efficiently 
manage the Federal Government's response to Presidentially-declared 
disasters.
    Successful implementation of the new initiatives and the on-going 
activities I have discussed today will improve our national system of 
mitigating against, preparing for, responding to, recovering from 
disasters and emergencies caused by all hazards.
    In closing, I want to thank the Members of the Subcommittee for 
their past support of FEMA and I appreciate the opportunity to testify 
before you today. I would now be pleased to answer any questions you 
may have.

                      STRATEGIC NATIONAL STOCKPILE

    Senator Cochran. Thank you, Mr. Secretary.
    Some of the questions that we have relate to the proposals 
to make transfers of authority and responsibility within the 
executive branch, some from the new Department of Homeland 
Security to the Department of Health and Human Services. I 
observed in Senator Byrd's statement concerns about that, and I 
was going to ask about that as well.
    One of the transfers that I notice includes a transfer of 
the Strategic National Stockpile to the Department of Health 
and Human Services. Why is this a priority of the 
administration? Do you think that would be an appropriate thing 
to do and would enable us to do a better job of defending 
against attacks or terrorist attacks in this area?
    Mr. Brown. Senator, the beauty of transferring the 
stockpile back to HHS is that it truly aligns the budget 
requirements and the operations requirements in one Department. 
The important thing to note is that FEMA does not lose its 
ability to deploy the stockpile in times of emergency. Under 
the national response plan, we will still be able to deploy the 
stockpile and utilize it as necessary to aid victims. So, what 
we have done is actually realign operations and budget within 
one Department.

                          DISASTER RELIEF FUND

    Senator Cochran. There is also a question about whether 
some of the funding requests are sufficient to enable you to 
carry out your mission and to fulfill your responsibilities 
under the law. In particular, we notice that in the President's 
budget for disaster relief there is a request for $2.1 billion, 
but also included is a transfer of $7 million to preparedness, 
mitigation, response, and recovery for the urban search and 
rescue teams.
    Is this an indication that you really need more money for 
disaster relief than is reflected in the budget request?
    Mr. Brown. No, Senator, it is not. In fact, I would say in 
response to Senator Byrd's comments earlier about last years 
episode with the disaster relief fund, that President Bush 
absolutely recognizes the importance of the DRF being fully 
funded, and in this case by requesting $2.15 billion, we are 
going to be able to do that.
    I will tell you that we learned some lessons in FEMA last 
year because of that experience with the DRF. I am very pleased 
to say that our cash management systems have gotten much 
better. Our recoveries have gotten much better, and so this 
$2.15 billion, combined with the carryover we are going to have 
from good cash management, and from the recoveries that we are 
going to make in the current DRF funding, will be fully funded 
in the DRF this year. I think that is a reflection of the 
President's understanding that this pool of money needs to be 
available so that FEMA can do its job without worrying if there 
is enough money or putting some programs on hold. It is a 
recognition of the importance of that fund.
    Senator Cochran. Well, I am impressed with the job that the 
Department has done in such a short period of time, 
reorganizing itself under the new Department's management 
structure, but including some agencies like FEMA, which is I 
suppose one of the principal responsibilities of this 
directorate which you chair, and to do so in a way that did not 
diminish in any respect the capacity of the Government to 
respond to natural disasters and the traditional role that FEMA 
has played. So, I congratulate you on the management function 
that you are providing and the responsibilities that you are 
carrying out in that regard.
    We are going to work hard to be sure that we appropriate 
the money that you need and that our communities need when they 
are confronted with natural disasters. In my part of the 
country, we have been besieged with hurricanes, floods, 
tornadoes, and many other natural disasters, and FEMA has been 
right there and has helped lead the way, working with local 
officials and volunteers who come to respond to those 
situations. We know how important your work is and we 
appreciate the fact that you are dedicating yourself to help 
run this agency so people who do need help in these situations 
get it.
    Mr. Brown. Senator, I very much appreciate those comments.

                           FIRE GRANT PROGRAM

    Senator Cochran. Senator Byrd.
    Senator Byrd. Mr. Under Secretary, in my opening statement, 
I had a question which I said was rhetorical for that purpose. 
Where do these policies leave a small town fire department, 
let's say in Sophia, West Virginia, that needs to purchase 
breathing apparatus or needs equipment to deal with a chemical 
spill? Let us say we are talking about a town in Kanawha County 
on the river near the great complex of chemical industries that 
have been located there and have served the country so well 
through the years. Where does the policy leave a small town 
fire department that needs to purchase breathing apparatus or 
equipment to deal with a chemical spill?
    Mr. Brown. Senator, I would tell you that I think the fire 
grant program is one of the best programs in the Federal 
Government. It is incredibly efficient, organized, and directly 
affects and helps needs like those you are identifying. In 
addition to that, it has a peer review process that will take 
fire departments from West Virginia, Mississippi, Washington, 
or wherever they are from, and the peers themselves, the fire 
departments, look at where the need is the greatest and give us 
advice about where those dollars should go.
    I will tell you that the President's request this year for 
$500 million in fire grants is the same amount that the 
President requested last year. He recognizes the importance of 
first responders. He also recognizes the importance of this 
program.
    We are doing absolutely everything to ensure that the fire 
grant program is not deteriorated in any way by its movement to 
ODP. We are providing detailees. We are providing programmatic 
support. We are doing everything to make sure that program 
stays intact. Congress recognized that last year and said, as 
this transfer takes place, the U.S. Fire Administration should 
remain a vital part of the grant program, and indeed they are. 
FEMA is doing everything to support ODP to keep this program 
operating the exact same way it always has so that it does help 
fire departments like you describe.
    Senator Byrd. Mr. Brown, if it is one of the best programs, 
a statement with which I agree, why is the President proposing 
to cut it by 33 percent?
    Mr. Brown. Well, the President's request is the exact same 
as he made last year, and Congress added an extra $249 million 
to it last year. The President is reiterating his same request 
from last year.
    Senator Byrd. But he is cutting the program by 33 percent. 
Why is he doing that?
    Mr. Brown. His request is the same request he made last 
year.
    Senator Byrd. I understand that. You said that already. But 
on what basis? Why is he doing that?
    Mr. Brown. The President's overall request for first 
responders is actually an increase. There was $8 billion last 
year for first responders, and that is increasing by about $900 
million this year. So, overall for first responders, there is 
actually an increase.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Senator Byrd. Do I have time for one more question on this 
round?
    Senator Cochran. Yes.
    Senator Byrd. Mr. Secretary, first, you are proposing to 
cut emergency management performance grants by $9 million. 
Second, you are proposing to target those reduced emergency 
management dollars to terrorism activities, in essence, 
mandating that States put terrorism projects at the top of 
their priority list or risk losing funding. Finally, you are 
proposing to hinder the States' flexibility by capping at 25 
percent the amount of each grant that can be spent on salaries.
    West Virginia spends more than half of its EMPG funds on 
salaries. I understand that nationwide State and local 
governments use over 50 percent of their grant funds for the 
salaries that pay for emergency planning professionals. In West 
Virginia, EMPG is an essential source of funds to help State 
emergency managers reduce the threat of floods, assist flood 
victims, and to prepare for potential chemical spills. The all-
hazards approach to emergency management is a critical tool for 
State officials.
    Earlier this week, I received a letter from Stephen Kappa, 
K-a-p-p-a, the Director of the Office of Emergency Services in 
West Virginia. Perhaps you know him, do you?
    Mr. Brown. Yes sir, I do.
    Senator Byrd. In his letter, Director Kappa concluded that 
the President's proposals for emergency management would have--
and I quote here--``a devastating impact on emergency 
preparedness at the State and local levels.'' He, Mr. Kappa, 
concluded that--quote, again--``West Virginia and other States 
must balance our preparedness efforts to appropriately 
integrate terrorism, not to the detriment or exclusion of the 
existing national emergency response system that supports day-
to-day public safety needs.'' That is the end of that excerpt 
from Mr. Kappa's letter to me.
    Today if FEMA focuses too myopically on terrorist threats, 
it could jeopardize the all-hazards approach to emergency 
management that has been built up over the past 25 years, and 
we will be in danger of repeating past mistakes.
    I am very disappointed with the President's emergency 
management proposal. Please explain, if you will, to a couple 
of Senators, who have been here quite some time from flood-
prone States, such as West Virginia and Mississippi, why these 
proposals make sense.
    Mr. Brown. Senator, let me first state that I understand 
the concern that has been expressed by you and others about 
this change on the cap. I recognize that concern. In addition 
to that, the reason that FEMA has always been successful under 
James Lee Witt's leadership, under Joe Albaugh's leadership, 
has been that we have always understood that it is the ability 
of our State and local partners to do their job that helps make 
us successful. We must continue our relationships with the 
State and local agencies to understand what their capacities 
are, what their abilities are, what they have, and what they 
can and cannot do. One way that we will do that is through the 
EMPG. By changing the cap, it increases necessarily the amount 
of money that is now available for training and exercises at 
the State and local government. The administration believes 
that personnel costs are truly a shared cost and the State and 
locals should share some of the costs of that personnel, with 
this change, we are increasing the amount of money that we can 
now use to exercise and train those personnel to make them even 
more robust in the future.
    Senator Byrd. Is that the answer to my question?
    Mr. Brown. Yes, sir.
    Senator Byrd. That is all on this round, Mr. Chairman. 
Thank you.
    Senator Cochran. Senator Murray.

            CUTS TO EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Senator Murray. Mr. Chairman, thank you very much.
    I want to follow up on the question that Senator Byrd asked 
because I am also hearing from everyone in my State they are 
deeply concerned about this cap and obviously the cuts to the 
EMPG program. It is really the backbone for many of our 
communities in responding to all types of hazards. Senator Byrd 
mentioned floods. Certainly earthquakes and all the other 
disasters that people have to prepare for are also included. 
They have added to this now, obviously, terrorism. I am very 
concerned because EMPG really is the lifeblood for many of the 
emergency programs in my State and across the country.
    A good example is Kitsap County. It has several military 
bases, a population of about 240,000, and about one-fifth of 
the emergency management budget comes from EMPG funding. That 
county uses its funding to support their office operations and 
to provide public education to help prepare the cities and 
residents in that county for all types of hazards. But not 
every community in my State is like that, and for those 
communities, EMPG funding is not some kind of enhancement. It 
is actually not unusual to see almost 80 percent of the Federal 
EMPG allocation used to hire dedicated emergency management 
professionals, which is really important.
    So, when we see these recommended limitations, many of the 
communities in my State and probably across the country tell us 
they are going to have to terminate their emergency management 
program. That would place our entire emergency management 
response system in jeopardy. So, I share Senator Byrd's concern 
and I think we need to understand that the cap in particular 
will dramatically impact many of our counties to where they are 
not doing this, and that is, I do not think, the direction your 
agency wants to go.
    So, if you want to respond, I am happy to listen.
    Mr. Brown. In response, Senator, I would just say again 
that I understand those concerns greatly. I want to emphasize 
that we believe that a robust State and local system is 
necessary for FEMA to be able to succeed because, remember, 
FEMA only steps in when it is beyond the capabilities of State 
and local governments to respond to a disaster, whether it is 
natural or manmade. With the change in this cap, we will now 
use those additional resources to train the people at the State 
and local level to exercise them more at the State and local 
level than we have in the past.
    Senator Murray. But if there is nobody there to train, we 
are going to be----
    Mr. Brown. We would ask the States to see if they cannot 
find money to keep those people in place, because I do not want 
to lose those people either. I want to keep them there and 
train them and exercise them.
    Senator Murray. Well, remember, our States and our local 
communities are suffering from a very difficult budget crisis 
right now.
    Mr. Brown. I understand.
    Senator Murray. And if we just count on them coming up with 
the money, they are going to turn to us and talk about Federal 
mandates and complain to us, and it will be back on our 
shoulders when there is a response that cannot be taken care 
of.
    Mr. Brown. I understand that, Senator.
    Senator Murray. So, Senator Byrd, I want to work with you 
on that concern because I share it.
    Senator Byrd. Thank you. You have heard the company line.

 PUTTING THE STRATEGIC NATIONAL STOCKPILE BACK UNDER THE DEPARTMENT OF 
                       HEALTH AND HUMAN SERVICES

    Senator Murray. The chairman mentioned the issue of the 
Strategic National Stockpile being put back under the 
Department of Health and Human Services. I think it is a 
positive change. I think it will help streamline the Federal 
decision-making in time of a crisis, but I am concerned that 
with this change, the Department of Homeland Security will no 
longer be connected to the public health community and our 
Nation's doctors and nurses are our first responders, 
particularly in time of a biological attack. They are the ones 
we need to sound the alarm, and we need to make sure that the 
immunologists and the virologists and the State public health 
officials are part of that coordinated effort to manage and 
respond to a crisis if it involves bioterrorism. So, I am 
concerned about that and want to know from you how we are going 
to engage our public health professionals and keep them part of 
this loop.
    Mr. Brown. Oh, absolutely. In fact, I hope I can alleviate 
those concerns because, while the stockpile does transfer back 
to HHS, it is only the budget and operations. We would still 
deploy the stockpile. We would still handle the logistics of 
the stockpile.

                    NATIONAL DISASTER MEDICAL SYSTEM

    In addition to that, we still have the National Disaster 
Medical System within FEMA, which we are looking at and 
assessing. I think we have a very good relationship with NDMS. 
I think they are very proud to be a part of FEMA now. We are 
really trying to invigorate that system to make it part of the 
first responder community. So I think those concerns that you 
have, while they are certainly legitimate concerns, we are 
addressing those. I think we are on the right track to 
incorporate NDMS fully into our response system.
    Senator Murray. Well, thank you.
    Mr. Chairman, I do have a few other questions, but I know 
we have a vote in a few minutes. I would like to submit them, 
if I can, in particular involving Hammer Training Facility and 
our ability to train some of our local responders that I would 
like to get a response back from you.
    Mr. Brown. Certainly.
    Senator Cochran. Thank you.

                               BIOSHIELD

    Mr. Secretary, let me ask you about the budget request as 
it relates to the BioShield initiative. The request asks for a 
substantial increase in funding from $885 million for this 
fiscal year to the level of $2.5 billion for fiscal year 2005. 
What is the justification for that substantial increase?
    Mr. Brown. Mr. Chairman, that will fully fund the BioShield 
program, as the President announced in the State of the Union a 
couple of years ago. That will enable us to create, as I said 
last year, this venture capital fund, if you want to call it 
that, so that we are ready to create a market for any kind of 
antibiotics or other medicines that we need to respond to a 
bioterror threat. There currently is no way to encourage the 
pharmaceutical companies or the drug companies to venture into 
these areas and create things for which there is no market 
other than the fact that we have intelligence that may tell us 
that there is a specific threat, a specific pathogen that 
terrorists are trying to use. This will enable us to create 
that market and produce those antibodies for that particular 
kind of attack.
    Senator Cochran. There is a failure by the Congress to pass 
legislation that authorizes the BioShield program. Does this 
lack of legal authority impair in any way the administration's 
efforts to help protect our national security from a threat 
that this program seeks to address?
    Mr. Brown. Mr. Chairman, we are going to use the excellent 
language that you put in the appropriations, and use that as 
authorization to move forward, because we think our mandate 
from you and from the Congress is to use this money, and to use 
it for these kinds of threats. So that is what we will do.
    Senator Cochran. To what extent are your funds going to be 
expended in this year and for what specific purposes?
    Mr. Brown. We currently are looking at some additional 
anthrax vaccines and some additional kinds of antibiotics that 
we need to develop.
    Senator Cochran. The President's budget proposes in this 
area to make some transfers, transfer the Strategic National 
Stockpile from Homeland Security to the Department of Health 
and Human Services. But it does not suggest that BioShield 
should be transferred. Why is it more appropriate for the 
stockpile to be managed by HHS and BioShield to be managed by 
the Department of Homeland Security?
    Mr. Brown. Primarily because in BioShield, the resources 
that will be used in it are going to be based upon the threats 
that the Department of Homeland Security, the Central 
Intelligence Agency, and others develop through their intel 
gathering processes. So, as we understand and determine what 
those threats are, that BioShield money will be there for us to 
use to respond to those specific threats. Now, we will still 
work with the CDC, with HHS, and others in the development of 
those drugs and pharmaceuticals, but because we have the threat 
information, we believe that program should remain within DHS.
    Senator Cochran. To your knowledge, is there an assessment 
being done by the administration on our vulnerabilities to 
biological attacks, and if so, who is doing the assessments?
    Mr. Brown. There is an assessment that is being carried 
forth, primarily by the Department of Homeland Security. Since 
September 11th, everything has changed in the Federal 
Government. And when I say that DHS is leading it, you can rest 
assured that we do not do anything without incorporating all of 
our Federal partners. We talk to HHS. We talk to CDC. We talk 
to anyone who may be involved to make sure that we get the 
right kind of information and that we get the right kind of 
response.
    Senator Cochran. I assume that your directorate has had 
some involvement in the recent events that have been in the 
news and with those that we are also familiar with here in 
Congress, the ricin incident here in this building, and the 
anthrax events of the recent past. To what extent is the 
Department actively involved in these episodes? What do you do? 
What did you do in connection with those events?
    Mr. Brown. Everything from information-sharing among the 
Departments to the Capitol Police. We were in constant contact 
with them, for example, during the State of the Union or any 
other national security special event such as that. We deploy 
the National Disaster Medical System. You probably did not have 
a chance to see it during the State of the Union, but we had 
incredible teams all around these buildings, all within the 
Capitol, ready to respond to any type of event. So with FEMA 
and the Department of Homeland Security still being seen as the 
first responder on behalf of the Federal Government, we have an 
intimate involvement in all of those activities.
    Senator Cochran. Thank you very much for your efforts to 
protect our security.
    Mr. Brown. Thank you, Senator.
    Senator Cochran. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman, one of the best with 
whom I have ever served. I am talking about you.
    Senator Cochran. I understand. You are embarrassing me.

                        PRE-DISASTER MITIGATION

    Senator Byrd. Mr. Secretary, in fiscal years 2003 and 2004, 
Congress appropriated $150 million for a new pre-disaster 
mitigation fund. $150 million was a compromise with the 
Administration which proposed to spend $300 million on pre-
disaster mitigation and to eliminate any funds for post-
disaster mitigation.
    This year, the administration requests $150 million for 
pre-disaster mitigation, and requests that 7.5 percent of the 
amount a State receives for a disaster from FEMA be provided 
for post-disaster mitigation.
    I am pleased that the Administration recognizes the 
importance of post-disaster mitigation. In West Virginia, the 
$5.6 million received from this program will be used to acquire 
and demolish repetitive lost properties in the flood plain and 
relocate residents. To date, none of the non-planning pre-
disaster funds from either 2003 or 2004 have been made 
available to States. West Virginia wants to spend the money on 
moving people out of the flood plain before another disaster 
strikes. It is unacceptable that this money is stuck at FEMA.
    When can States expect to have pre-disaster mitigation 
funds in hand?
    Mr. Brown. Senator, we have received well over 400 
applications for that money. 140 grants have been awarded for 
planning and for specific mitigation projects. To date, $49 
million has been obligated. $15 million of that was for 
planning and $34 million for actual projects. $70 million will 
go out on a rolling basis before the end of the calendar year. 
So, we have received those 400 applications, and we have 
already obligated 49. We have also awarded 140 grants. That 
money will start going out the door. I want to get those people 
out of those repetitive places just as badly as you do, sir.
    Senator Byrd. I am not so sure about that. Be careful what 
you say.
    Mr. Brown. Sir, we will get those funds out. It is a 
process of requesting 400 applications, getting the planning 
for those applications done, and the grant money out for those 
planning grants. And we will continue to get those monies out 
on a rolling basis.
    Senator Byrd. The 2003 money was appropriated 12 months 
ago. I simply do not understand why it has taken so long to get 
the money out the door.
    Until fiscal year 2003, States received an additional 15 
percent in disaster relief funds for post-disaster mitigation 
projects. Earlier this week, I received a letter from a host of 
emergency management groups, including the International 
Association of Emergency Managers, the American Public Works 
Association, and the Association of State Flood Plain Managers, 
urging Congress to restore the hazard mitigation grant program 
formula to 15 percent from its current level of 7.5 percent.
    What is your opinion of this proposal?
    Mr. Brown. Senator, I am for anything that we can do to 
mitigate disasters, pre-disaster or post-disaster. To the 
extent that we can get money out the door to help folks, we are 
going to do that.
    Senator Byrd. What is your opinion of this proposal?
    Mr. Brown. We will certainly take it under consideration 
and look at it, Senator.
    Senator Byrd. You are going to take it into consideration 
and look at it?
    Mr. Brown. We certainly will.
    Senator Byrd. Well, I am going to call you in a few days 
and see how long you have been looking at it. Okay?
    Mr. Brown. Excellent.

                  PROPOSED CUTS TO FIRE GRANTS FUNDING

    Senator Byrd. I have just one more question, Mr. Chairman, 
and I may have others for the record.
    In December 2002, FEMA issued a report entitled, ``A Needs 
Assessment of the U.S. Fire Service''. That report found that 
half of all fire engines being used by our fire departments 
were over 15 years old. It found that 57,000 fire fighters 
lacked personal protective equipment, and that 41 percent of 
fire department personnel involved in wildland fire fighting 
lacked formal training in those duties.
    Last year you could not approve over $1.7 billion of 
applications because of a lack of funds.
    Given the serious deficiencies in basic fire fighting 
equipment and skills that you found, do you think that the 
administration's proposal to cut fire grant funding by 33 
percent and to focus fire grants on terrorism-related 
activities will undermine the ability of our local fire 
fighters to respond to emergencies in their communities?
    Mr. Brown. No, sir, it will not because we will continue to 
make certain that under the fire grant program whatever monies 
we have available go to the highest critical needs, so that we 
start solving the worst needs that we have in the country 
first. We will keep the program in place that way and make 
certain that the money goes where it should go.
    Senator Byrd. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.

                  NATIONAL INCIDENT MANAGEMENT SYSTEM

    Senator Cochran. Thank you, Senator Byrd, very much for 
your assistance with the work of this committee. I appreciate 
it.
    Mr. Secretary, the budget request includes an increase of 
$7 million for a national incident management system to support 
the President's national strategy for homeland security. This 
incident management system is proposed to be a single 
coordinating system to bring together the Federal, State, and 
local governments, tribal Nations, and citizens during 
emergencies, disasters, or other catastrophic incidents.
    How will the national incident management system differ 
from other systems that are designed to deal with all-hazard 
events within the Federal Emergency Management Agency and the 
Emergency Preparedness and Response Directorate?
    Mr. Brown. Senator, one of the problems we have now is that 
while we have a fairly good, unified command system around the 
country--first responders generally understand unified command 
and command and control systems--what we lack is a unified 
national incident management system with a common language by 
which we can all exercise and train to that common language. 
This $7 million will enable us to do that. So, when we bring in 
teams from anywhere in the country or mutual aid teams are 
helping other teams, they will walk into that situation with a 
common language, a common training. They will have exercised 
under a common system so that everyone will be on the same 
page, so to speak, when they are responding to any kind of 
disaster.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Mr. Secretary, we appreciate very much 
your cooperation with our committee, your making available your 
statement to us, and the opportunity to visit with you to talk 
about the budget request in advance of the hearing.
    Senators may submit written questions, as you know. We hope 
that you will be able to respond to them within a reasonable 
time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                               BIOSHIELD

    Question. Without Congressional approval of BioShield, who has the 
authority to sign contracts related to the obligation of BioShield 
funds?
    Answer. The fiscal year 2004 Homeland Security Appropriations Act 
provided $890 million to be spent for development of biodefense 
countermeasures for the current fiscal year. The Department of Homeland 
Security (DHS), the Department of Health and Human Services (HHS), the 
Homeland Security Council, and the Office of Management and Budget 
(OMB) recognize the importance of expeditious progress in developing 
much-needed countermeasures while following Congressional intent. In 
that vein, DHS and HHS have sought to ensure that the development of 
the interagency agreement for next-generation anthrax vaccine is in 
line with the proposed BioShield legislation. Until such time as the 
BioShield Act is passed, a FEMA contracting officer has the authority 
to sign interagency agreements with HHS, which, in turn, will execute 
contracts with manufacturers.

                            ANTHRAX VACCINE

    Question. Is the procurement of an anthrax vaccine conducted 
through the Strategic National Stockpile or BioShield? Is this the 
responsibility of the Department of Homeland Security or the Department 
of Health and Human Services?
    Answer. Anthrax vaccine (recombinant Protective Antigen, or rPA) 
procurement will be funded by the Biodefense Countermeasures 
appropriation included in the fiscal year 2004 DHS appropriation, but 
will be acquired for exclusive placement in the Strategic National 
Stockpile (SNS). The SNS discretionary appropriation is used to 
purchase items for which there is a significant commercial market. The 
BioShield program was specifically constructed to spur development of 
countermeasures for which no commercial market existed, as is the case 
with rPA, for inclusion in the Stockpile.
    DHS is responsible for assessing current and emerging threats 
against the United States. The Weapons of Mass Destruction (WMD) 
Medical Countermeasures subcommittee, an interagency group co-chaired 
by DHS, HHS, and the Department of Defense, has developed 
countermeasures information of interest to officials who will make the 
BioShield procurement decisions. The WMD subcommittee commissioned an 
end-to-end analysis of medical countermeasures to Category ``A'' 
biological agents (anthrax, smallpox, plague, botulinum toxin, 
tularemia, Ebola and other hemorrhagic fever viruses). Working groups 
developed initial requirements for four high-priority bioweapon (BW) 
countermeasures for which there is high need and a reasonable 
expectation that products will be available in the near term, with rPA 
development topping the list.
    The DHS Secretary enters into an interagency agreement with the HHS 
Secretary, whose department is responsible for providing medical, 
scientific, acquisition, technical, and procurement expertise, and is 
to establish technical requirements, identify suppliers, negotiate and 
evaluate proposals, enter into contracts, assess contractor 
performance, and perform administrative services. HHS also must ensure 
all the necessary steps have been taken for the licensing of the 
finished product.
    Additionally, DHS is in the process of finalizing an interagency 
agreement with the Army for the acquisition of Anthrax Vaccine Adsorbed 
(AVA). This agreement will be funded from the Public Health Programs 
(SNS) appropriations account.
    Question. When will the Department of Homeland Security or the 
Department of Health and Human Services procure the doses for which it 
has identified a requirement? What is that requirement? How many doses 
over what period of time will be necessary to meet it?
    Answer. DHS and HHS are now finalizing an interagency agreement to 
purchase recombinant Protective Antigen (rPA) vaccine to protect 25 
million persons. The government will consider later purchase of 
additional anthrax vaccine contingent on new vaccination delivery 
system technology and other cost-saving factors such as reduced dose 
requirements. A three-dose schedule is currently being evaluated, which 
would require a total purchase of 75 million doses. This initial 
agreement for fiscal year 2004 is for $134 million. Projections for 
obtaining the entire 75 million-dose requirement cover 5 years. 
Additionally, DHS is now finalizing an interagency agreement with the 
Department of the Army for up to 5 million doses of AVA.
    Question. Are we filling at least part of that requirement with an 
FDA-approved product currently available?
    Answer. The Stockpile currently maintains a small amount of the 
only FDA-licensed pre-exposure vaccine against anthrax (Anthrax Vaccine 
Adsorbed, or AVA). Currently, it has limited production capacity, and 
rectifying that problem would be very expensive and take several years 
to accomplish. AVA is not currently licensed for children or for the 
elderly. However, in order to ensure that some type of anthrax vaccine 
is available until the development and procurement of rPA, DHS and HHS 
have signed an interagency agreement for the purchase of AVA through 
the Department of the Army. This agreement will provide approximately 2 
million doses in fiscal year 2004, 1.5 million doses in fiscal year 
2005, and 1.5 million doses in fiscal year 2006.

                      STRATEGIC NATIONAL STOCKPILE

    Question. The proposal to transfer the Strategic National Stockpile 
from the Department of Homeland Security (DHS) back to the Department 
of Health and Human Services (HHS) in fiscal year 2005 requires 
legislative action by the authorizing committee. Has such legislation 
been submitted by DHS, and if so, what action has been taken by the 
authorizing committee?
    Answer. Language to effectuate the transfer of SNS from DHS to HHS 
has been added to S. 15, the Project Bioshield Act of 2003.
    Question. How has the fiscal year 2004 transfer from HHS to DHS, 
and the proposed fiscal year 2005 transfer from DHS to HHS, affected 
the daily operations, personnel, and activities of the program? Have we 
crippled the program in any way by continuing to shuffle it between 
departments? How are decisions being made at this time in regard to the 
Stockpile?
    Answer. The daily operations of the Stockpile have not been 
affected in any significant manner. Personnel and normal operations are 
nearly unchanged since the transfer from HHS to DHS and decisions are 
being made much as they always have been made at the Stockpile. The 
motivation to return the program to HHS is due to the desire to create 
a single command structure for the program, and to streamline 
operations once again. HHS will, however, have the obligation to deploy 
the stockpile when so requested by the Secretary of DHS. As such, the 
potential response needs of the DHS mission will not be compromised in 
any manner.

                  METROPOLITAN MEDICAL RESPONSE SYSTEM

    Question. What is the direct impact of the elimination of funding 
within Emergency Preparedness and Response in fiscal year 2005 for the 
Metropolitan Medical Response System?
    Answer. The funds that Congress has appropriated for the 
Metropolitan Medical Response System (MMRS) over the last several years 
have been used to establish certain capabilities, to get the program up 
to its baseline, and to facilitate transfer of the program to the 
localities for continuation, once the baseline is established. We will 
reach the baseline this fiscal year (2004), and therefore no additional 
funding is being requested.
    Secretary Ridge has proposed a reorganization (a letter was sent to 
Members of Congress on January 26, 2004), wherein the MMRS program for 
fiscal year 2004 will be transferred to a newly established Office of 
State and Local Government Coordination and Preparedness. Under this 
arrangement, FEMA would have no further role in the MMRS program for 
fiscal year 2004, and there will be no Federal program in fiscal year 
2005.
    We cannot precisely estimate the number of local jurisdictions that 
would continue the MMRS program without Federal resources support. We 
are fairly certain that a large number of them, as an element of 
prudent preparedness and operational necessity, will attempt to 
maintain MMRS-type mass casualty integrated response preparedness and 
seek to use Federal funds from other programs to support eligible 
portions of MMRS-type capabilities.
    Question. Are the program activities of the Metropolitan Medical 
Response System being met within any other areas of the President's 
budget?
    Answer. There are other Federal programs, which provide more 
narrowly focused, but related, support. These include the Centers for 
Disease Control and Prevention-Health Resources and Services 
Administration (HRSA) Bioterrorism Preparedness Grants and the HRSA 
Hospital Grants; the Office for Domestic Preparedness (ODP) Training 
and Exercise Programs and Equipment Grants; and ODP Urban Area Security 
Initiative funding to the designated States, which will then work with 
counties and cities to form regions that will work together through 
mutual aid agreements, interoperable communications, statewide 
intelligence centers, and community and citizen participation.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Question. What will happen to the all-hazards preparedness, 
mitigation, response, and recovery activities of the Emergency 
Management Performance Grants if the primary focus for all grant 
programs within the Office for Domestic Preparedness is required to be 
homeland security activities?
    Answer. Effective State and local all-hazards planning capabilities 
are critical to the success of FEMA in responding to disasters, but at 
this time, the Administration feels strongly that resources be focused 
toward building local governments' homeland security capabilities.
    Question. If a 25 percent cap is placed on the amount of grant 
funding allowed for personnel costs, many county and local emergency 
management offices may have to close due to the funding shortfall. The 
emergency management offices are critical to the preparation of the 
local community prior to disasters, which is the key to ensuring 
survival of its citizens during a disaster. The 25 percent cap on 
personnel costs could result in as much as a 60 percent decrease in 
emergency management staff nation-wide. If this happens, how will it 
affect FEMA's ability to operate in the field during a disaster? Would 
the direct costs to FEMA increase if more FEMA personnel were required 
to travel to the disaster site for assistance due to lack of local 
emergency management personnel?
    Answer. Currently, Emergency Management Performance Grants funds 
are disproportionately used to pay salaries, which is predominately a 
State/local responsibility. The cap on personnel costs is intended to 
ensure that the State and local governments assume more responsibility 
for their personnel costs. This would allow a greater percentage of 
grant funds to be utilized by State and local governments for training 
and exercises, further enhancing readiness capabilities.

            PREPAREDNESS, MITIGATION, RESPONSE, AND RECOVERY

    Questions. For fiscal year 2004, the Emergency Preparedness and 
Response Directorate proposed to establish one pilot Incident 
Management Team to develop the base structures and procedures for the 
four Incident Management Teams requested in the fiscal year 2005 
budget.
    Where will the one pilot Incident Management Team be located?
    What criteria were used to determine this location?
    Where are you in the process of establishing this pilot team?
    What is the time-frame for having the pilot team fully operational?
    Answer. The Pilot Incident Management Team (IMT) will be collocated 
with the Coast Guard facility in Elizabeth City, North Carolina. This 
location was chosen for the Pilot IMT primarily due to the efficiencies 
that can be achieved through use of existing Coast Guard facilities, 
air transportation, and available space. Our goal in fiscal year 2005 
is for IMTs to be fully activated within 15 hours of initial disaster 
notification and to have an average IMT response time for arrival at a 
disaster site within 22 hours. Our current average response time for 
all existing response teams is 72 hours for arrival on scene; the 
response time for the IMTs will help to reduce this overall average to 
60 hours by fiscal year 2005. Geographic proximity and transportation 
support will be crucial to achievement of this goal.
    Also, this geographic location is ideal for its close proximity to 
high-risk areas in the eastern United States. The Pilot IMT is our 
development phase of this initiative and the timing for its inclusion 
into our response system coincides perfectly with the onset of the 2004 
hurricane season. This location will also afford us the possibility of 
real-time disaster scenarios in which the IMT can be utilized, 
exercised, and evaluated for future development of other teams in 
fiscal year 2005.
    We are currently engaged in the acquisition of support equipment 
and recruitment of personnel, and we plan to have the Pilot IMT at an 
operational status by September 2004. The development and validation of 
procedures and operational doctrine will be complete by that time as 
well. Operational status will be constantly augmented and improved as 
we continue to exercise the teams and to enhance our procedures and 
doctrine through remedial actions.
    In the future, the IMTs will be referred to as Federal Initial 
Response Support Teams (FIRST), a name which differentiates them from 
existing response teams and which follows incident management protocols 
more closely. This name change is proposed in the draft National 
Response Plan (NRP) and will be made official when the NRP is 
finalized.
    Questions. The fiscal year 2005 budget requests an increase of $6.2 
million for four Incident Management Teams to act as the core, field-
level response teams for major disasters, emergencies, and acts of 
terrorism. It is my understanding that this funding will be used to 
secure half of the personnel needed, secure two locations for housing 
and deployment of teams, complete studies regarding transportation 
needs, and develop plans for full implementation of four teams in 
fiscal year 2006.
    Will the $6.2 million support two Incident Management Teams or 
four? If $6.2 million only supports two fully functional teams, will 
another $6.2 million be needed in fiscal year 2006 for the other two 
teams? If not, then what is the anticipated need to complete this 
initiative?
    How will the locations for the Incident Management Teams be chosen?
    Do you anticipate expanding beyond four teams after fiscal year 
2006?
    What is the projected annual funding needed to maintain these teams 
once they are in place and fully operational?
    Answer. At the time the budget was developed, the plan was for two 
full teams staffed by 10 full-time equivalent (FTE) positions. Current 
plans are to use the funding requested in the fiscal year 2005 budget 
to establish four teams with 5 FTEs to provide better coverage across 
the country. The Pilot Team will be established in fiscal year 2004 and 
three additional teams will be established in fiscal year 2005. We have 
chosen locations for the teams that take advantage of existing DHS 
transportation and support assets without requiring a large team 
structure. Much of the work for site selection is being done in fiscal 
year 2004 to be ready for establishment of the teams. Establishment of 
the teams, however, is not an end stage for readiness.
    Locations for the IMTs are being identified based on geographic 
location as well as collocation with exiting Coast Guard assets that 
will be utilized to support the IMTs in their operations. Elizabeth 
City, North Carolina, and Sacramento, California, have been chosen as 
potential sites on the East and West coasts of the United States. This 
will allow the IMTs to have a quick response across the country, 
including Alaska and Hawaii, through ground and/or air transportation 
provided through support from the Coast Guard.
    Our goal in fiscal year 2005 is for IMTs to be fully activated 
within 15 hours of initial disaster notification and to have an average 
IMT response time for arrival at a disaster site within 22 hours. Our 
current average response time for all existing response teams is 72 
hours for arrival on scene; the response time for the IMTs will help to 
reduce this overall average to 60 hours by fiscal year 2005. Geographic 
proximity and transportation support will be crucial to achievement of 
this goal.
    At this point, we are concentrating on the establishment of the 
four teams planned for fiscal year 2005. It would not be fiscally 
responsible for us to plan for additional teams until we have 
thoroughly tested our capability with the four teams. We plan to 
conduct a thorough review of each team through exercises, 
credentialing, and after-action remediation before we make a 
determination on needs for future development. In order to provide 
support to the IMTs, we are also developing augmentation plans that 
will seamlessly link our regions and existing team structure to the 
IMTs.
    We anticipate that the $6.2 million budget will be programmed in 
outyears to provide maintenance of caches and equipment, exercise 
support, training, further development, and planning support for the 
IMTs.
    In the future, the IMTs will be referred to as Federal Initial 
Response Support Teams (FIRST), a name which differentiates them from 
existing response teams and which follows incident management protocols 
more closely. This name change is proposed in the draft National 
Response Plan (NRP) and will be made official when the NRP is 
finalized.
    Questions. The President's budget request includes a $1.8 million 
increase for the Mobile Emergency Response System to develop a 
temporary workforce to assist in the daily operations, deployments and 
necessary training and exercise programs to ensure that all response 
teams can provide a 24-hour response time to communities impacted by 
disasters, emergencies, terrorist events, or weapons of mass 
destruction incidents.
    How is this workforce trained, maintained, and called into action 
when needed? In general, how will the temporary workforce operate?
    How many workers make up the temporary workforce?
    What is the projected annual funding requirement to maintain the 
Mobile Emergency Response System?
    Answer. Every effort will be made to hire experienced personnel who 
are already trained, qualified, and experienced in the desired general 
skill areas. Once hired, they will be paired with permanent full-time 
employees for on-the-job-training on specific systems. Their skills 
will be maintained and kept current in the same manner by which the 
permanent full-time employees' skills are kept current. As new systems 
are introduced and current systems are upgraded, they will be provided 
a combination of contractor and in-house instruction. They will also be 
provided training literature and manuals as well as opportunities for 
continuing on-the-job-training. They will be called into action by 
using FEMA's Automatic Deployment Database. FEMA developed this system 
several years ago to rapidly activate and deploy its temporary 
workforce known as Disaster Assistance Employees, who provide most of 
the staffing at Disaster Field Offices.
    The Mobile Emergency Response System (MERS) temporary workforce 
will be called into action as training, daily operations, and 
deployment needs develop. In general, the temporary workforce will be 
used to reinforce and extend the capabilities of the MERS. When 
training opportunities occur, they will be activated for the period of 
the training. When deployments occur, they will be utilized in several 
important ways. They will report to the home bases to replace deployed 
permanent full-time employees to sustain ongoing daily operations. They 
will also deploy with full-time employees to increase and extend the 
scope of field operations and will deploy in the place of unavailable 
full-time employees.
    The initial goal is to have 50 MERS temporary employees. Although 
all the temporary employees will be available to assist any of the 5 
(MERS) Detachments, the initial goal will provide 10 temporary 
employees per unit. The final goal is to have 100 MERS temporary 
employees. This would equate to 20 temporary employees per unit.
    Once all hiring activities are completed, the projected annual 
funding to maintain a 100-person MERS temporary workforce is 
approximately $3.2 million.
    Questions. An increase of $5 million is requested to develop one 
fixed and one mobile module to demonstrate medical surge capacity. An 
additional $15 million is requested to develop two pilot projects to 
evaluate one fixed and one mobile medical surge facility.
    How will the locations for the pilot projects be determined?
    What follow-on appropriations will be required to support this 
project?
    What is the anticipated timeframe for expanding this project 
nation-wide?
    Answer. Department staff will develop standardized evaluation 
criteria that will be used to assess potential locations for the pilot 
projects. It is currently anticipated that a significant number of 
factors will be incorporated in the evaluation criteria, including: 
overall population of the jurisdiction; population density in and 
around the location; hazards and risks prevalent in the location 
(including natural, technological, and terrorist incidents); existing 
hospital capacity; strength and organization of existing medical 
response and public health systems; existing State or local plans for 
surge capacity; availability of existing Federal and non-Federal 
facilities with adequate storage space, site access, and proximity to 
commercial ground and air transportation; proximity to sources of 
medical equipment and pharmaceutical suppliers; and proximity to FEMA 
regional offices.
    FEMA continues to work with the Administration on the program 
details and budgetary requirements for future years.
    It is anticipated that if the program is funded beginning in fiscal 
year 2005 without delay, procurement will begin for the two pilot units 
in fiscal year 2005.

                        URBAN SEARCH AND RESCUE

    Question. Why has the administration requested only $7 million to 
support the FEMA urban search and rescue program when the annual 
preparedness grants of $150,000 that were previously generated under a 
$7 million budget were insufficient to properly maintain and operate 
these task forces?
    Answer. A funding level of $7 million is requested for Urban Search 
and Rescue (US&R) for fiscal year 2005. The program will be funded in 
the Preparedness, Mitigation, Response and Recovery account, rather 
than from Disaster Relief, where it has historically been funded. Since 
2001, FEMA has received more than $100 million in both regular and 
supplemental appropriations to upgrade equipment for and to train the 
US&R teams to perform under a variety of scenarios, including those 
involving WMD.
    Question. Since all 28 teams have been made Weapons of Mass 
Destruction (WMD) capable, what is the projected funding level for 
maintaining that WMD capability in fiscal year 2005?
    Answer. The fiscal year 2005 President's Budget requests $7 million 
for the US&R program.
    Question. Although funding was provided in fiscal years 2003 and 
2004 for the purchase of a second equipment cache, is it true that FEMA 
has not moved forward on this acquisition of equipment and materials 
for the 28 task forces? If so, why not? What happened to those funds?
    Answer. The US&R program is committing funds for the 2nd Equipment 
Cache initiative. This includes $22.4 million in fiscal year 2003 funds 
and $27.3 million in fiscal year 2004 funds through an interagency 
agreement with the Defense Logistics Agency, and a subordinate 
acquisition contractor to assist the US&R program office staff and to 
allow for the bulk purchase of the myriad tools, supplies, and 
equipment that will be procured (a full cache has some 6,500 items). An 
ad hoc Tiger Team made up of US&R logistics specialists from selected 
US&R task forces has been convened to address the purchase, 
organization, cache packaging, and other necessary issues for 
developing the prototype standardized cache that will be duplicated and 
distributed to the 28 US&R task forces in the system. Initial meetings 
have already been conducted and subsequent meetings are scheduled.
    Furthermore, we are finalizing the lease of necessary warehouse 
space to allow for the receipt of the ordered items; developing the 
organization, cache packaging scheme, and mobilization load plan of a 
standardized cache; and resolving other related issues. Due to the 
large size and complexity of a full US&R cache, the procurement and 
development is being addressed in a phased approach by cache function, 
such as rescue, communications, medical, logistics, etc. To expedite 
the process, each segment will be forwarded to all task forces as the 
segment is addressed. We anticipate the warehouse lease being finalized 
in mid-March. The overall initiative is in progress and on target with 
identified timelines. We anticipate the task forces will begin 
receiving initial cache shipments in the latter half of calendar year 
2004. Fiscal year 2003 and fiscal year 2004 funding provides for the 
first- and second-year phases of the overall 3-year acquisition. 
Funding for the third phase from fiscal year 2005 is indeterminate.
    Question. There seem to have been some delays in the progress of 
enhancement intended by Congress for the urban search and rescue 
program: a lack of progress in acquiring the second equipment cache for 
all 28 task forces; delay in the acquisition of ground transportation; 
development of additional training programs and task force evaluations 
have not been accomplished. What steps are being taken to rectify the 
delays and lack of progress?
    Answer. The identified aspects of the US&R program are in process 
and on target. The US&R program is committing funds for the 2nd 
Equipment Cache initiative. This includes $22.4 million in fiscal year 
2003 funds and $27.3 million in fiscal year 2004 funds. An ad hoc Tiger 
Team made up of US&R logistics specialists from selected US&R task 
forces has been convened to address the purchase, organization, cache 
packaging, and other necessary issues for developing the prototype 
standardized cache that will be duplicated and distributed to the 28 
US&R task forces in the system. Initial meetings have already been 
conducted and subsequent meetings are scheduled.
    Furthermore, we are finalizing the lease of necessary warehouse 
space to allow for the receipt of the ordered items; developing the 
organization, cache packaging scheme, and mobilization load plan of a 
standardized cache; and resolving other related issues. We anticipate 
the warehouse lease being finalized in mid-March.
    The acquisition of ground transport vehicles, which will allow for 
movement of the US&R equipment cache, is also on target. In fiscal year 
2003 funding, $11.2 million ($400,000 per task force for trucks and 
trailers) and $3.9 million ($138,000 per task force for command and 
support vehicles) is being provided to the 28 task forces for this 
procurement at the sponsoring agency level.
    The US&R program office has received and approved the task forces' 
acquisition plans for the fiscal year 2003 acquisition. We anticipate 
that all task forces will have the truck/trailer assets in place by the 
middle of 2004. Acquisition of command vehicles will follow in the same 
vein with the awarding of the fiscal year 2004 Preparedness Cooperative 
Agreements, which are also in process.
    US&R training requirements are also in process and on target. 
Another $2 million in fiscal year 2003 funds has been committed and 
eight national US&R specialist-training classes are scheduled and being 
conducted in calendar year 2004 (including the development of three new 
classes). For fiscal year 2004, $1.9 million is being obligated for 
nine national training classes scheduled during 2005. A comprehensive 
US&R Task Force Administrative Training Course has been developed and 
was recently delivered for the sponsoring agency task force program 
managers and grants managers of the 28 task forces. The US&R Task Force 
Readiness Evaluation Program is currently under development by US&R 
program staff and selected task force members. Prototypes for US&R 
Preparedness Cooperative Agreement reporting, monthly operational 
readiness reporting (using web-based online access), and onsite peer 
evaluation/readiness checks are in progress or have been developed. We 
anticipate the pilot onsite inspections to begin in the mid-to-latter 
half of calendar year 2004.

                   EMERGENCY FOOD AND SHELTER PROGRAM

    Question. The transfer of the Emergency Food and Shelter Program 
from the Department of Homeland Security (DHS) to the Department of 
Housing and Urban Development (HUD) requires legislative action by the 
authorizing committee. Has the Department sent a request to the 
authorizing committee for legislative language to be considered? If 
not, why? If so, what is the current status of the legislative 
proposal?
    Answer. FEMA is currently working with the appropriate authorizing 
and appropriations committees on the legislative language to transfer 
the Emergency Food and Shelter program to the Department of Housing and 
Urban Development in accordance with the President's fiscal year 2005 
budget request.

                        FLOOD MAP MODERNIZATION

    Question. The fiscal year 2005 budget request includes $200 million 
for the Flood Map Modernization project. How will this funding be used?
    Answer. Fiscal year 2005 funding will be used to continue to 
implement the Multi-Hazard Flood Map Modernization Program. FEMA's 
vision for the program entails providing credible flood maps and data 
for communities nationwide that are more accurate, up-to-date, easier 
to use, and readily available. FEMA intends to accomplish the 
following:
  --Network the Nation using the latest Internet portal technology to 
        provide access to general flood hazard, risk, and mitigation 
        information, and convert the maps from paper to a digital 
        format. The information will be tailored to the needs of 
        specific partners, stakeholders, and users.
  --Leverage the use of Federal, State, and local resources, and 
        transfer ownership and use of flood maps and data to the State 
        and local levels by building and maintaining effective 
        partnerships with State, regional, and community entities in 
        the development of the maps and data
  --Use clear data standards to ensure that the modernized flood hazard 
        maps reflect the best available data that suits the risk level 
        for the given area
  --Reduce processing time and costs for flood map updates and increase 
        accountability for spending by implementing results-oriented 
        systems and standards that will facilitate the rapid exchange 
        of data between our partners, staff, and contractors
  --Communicate widely, effectively, consistently, and continuously to 
        maximize our partners', stakeholders', and users' understanding 
        of flood hazards and the risks the hazards pose to life and 
        property
    Primarily, the fiscal year 2005 funding will be used to initiate 
and complete flood map updates nationwide based on our 5-year Multi-
Hazard Implementation Plan (MHIP) for completing the work in fiscal 
years 2004 through 2008. FEMA will use the MHIP to establish goals and 
baseline with existing priorities; to document and understand flood map 
update needs identified by State, regional, and local partners and 
stakeholders; and to develop prioritization criteria and a sequence for 
scoping counties and watersheds in the priority areas based on 
floodplain management, hydrologic, hydraulics, and terrain needs. The 
MHIP will be reevaluated annually to account for changing needs, 
natural disasters, and new partnerships; to prioritize changes; and to 
update mapping priorities, as appropriate.
    FEMA will provide a precise accounting of the engineering studies 
to be performed and the flood maps to be produced once development of 
the MHIP is completed; will scope the map update projects identified in 
coordination with State, regional, and local partners and stakeholders; 
and will contract the required map updates with our contractors and 
with State, regional, and local participants in our Cooperating 
Technical Partners (CTP) program.
    Question. The final contract for the national flood map 
modernization project has been continuously delayed over the last 
several months. Why? When exactly will the contract be finalized?
    Answer. The National Service Provider (NSP) contract was awarded on 
March 11, 2004. FEMA experienced some delays in finalizing the contract 
with the NSP due to the need to ensure the completeness and accuracy of 
this performance-based contract. More discussions and negotiations were 
needed than for a conventional compliance-based contract. The NSP is 
now on the ground in each of the ten regions as well as in 
headquarters, performing in accordance with the results-based contract, 
and on schedule to deliver initial functionality.
    Question. Since this is a performance-based contract, have the 
guidelines been developed for how performance will be measured? What 
level of funding is available or will be provided for the contract for 
``independent contractor'' monitoring?
    Answer. FEMA has developed guidelines for how performance on the 
NSP contract will be measured and performance metrics have been closely 
linked to the strategic goals of DHS and FEMA.
    A detailed program management plan that outlines how performance 
will be measured has been developed. FEMA has negotiated a performance 
requirement summary with the NSP that describes each specific 
measurement and its acceptable quality levels. We have established a 
specific team that will be responsible for monitoring performance 
measurements and reporting results on a frequent basis.
    FEMA has assigned specific responsibilities for monitoring and 
measuring not only the contract performance, but program performance as 
well. We are providing the NSP with incentives to effectively manage 
all mapping activities and build partnerships and capabilities while 
producing high-quality flood maps using accurate, credible data.
    In addition, FEMA is procuring the services of an independent 
contractor to help monitor the NSP's performance and to verify that 
program outcomes are truly achieved. The projected funding level for 
this independent contractor is approximately $1.2 million for fiscal 
year 2004.
    Question. There is concern about conflict of interest with the 
company who has won the national contract and how much work they may be 
doing on the sub-contractor level. Are there guidelines in place to 
ensure there is no conflict of interest? How will identified conflicts 
of interest be avoided or mitigated?
    Answer. During the source selection process, one of the key issues 
was identifying mechanisms to avoid conflicts of interest or the 
appearance of conflict. Each offeror included presentations on means of 
avoiding such conflicts. The contract has established that the NSP will 
have an aggressive Organizational Conflict of Interest (OCI) management 
program consistent with Federal Acquisition Regulation 9.5.
    The NSP, which is a team of experienced contractors led by one 
primary contractor, has proposed a conflict of interest management 
approach that will be put into place upon contract award. Under the 
proposed approach, the prime contractor will not pursue any contracts 
for engineering studies with our regional offices or with States under 
our CTP program. The proposed approach also includes a reporting 
requirement for all other members of the NSP team to disclose all 
ongoing contracts and pursuit of contracts to the prime contractor for 
screening to identify potential OCI issues, perceived or actual. The 
prime contractor will inform our Contracting Officer in writing of any 
work that could pose a potential OCI so that appropriate measures may 
be taken to eliminate the OCI.
    Question. Without valid data the people at the State and local 
level won't have confidence in the maps, making them virtually useless. 
What guidelines are in place for an independent review of the process 
itself and the new digitized maps to ensure the revised maps have valid 
data? How will FEMA ensure that the flood hazard ``data'' has been 
updated or is current before converting it into new digital maps?
    Answer. A fundamental tenet of the Multi-Hazard Flood Map 
Modernization Program is that State and local involvement in the 
modernization of the flood maps is essential for program success. 
State, regional, and local partner involvement is particularly vital 
for the identification and use of best available, accurate data that 
are appropriate for the flood risk in the area being mapped. We are 
maximizing our partners' involvement and contributions in this critical 
area by establishing clear quality standards; by making appropriate use 
of Internet technology, automated data collection and processing tools; 
and through use of independent quality reviews.
    FEMA has developed criteria for assuring the quality of flood 
hazard maps and supporting data. FEMA implemented Digital Flood 
Insurance Rate Map base map standards in 1998 and Light Detection and 
Ranging system standards in 2000. Both standards were updated when the 
consolidated Guidelines and Specifications for Flood Hazard Mapping 
Partners was published in February 2002.
    State, regional, and local review and acceptance of new and 
existing data will be achieved at key milestones throughout the flood 
map update process--from the initial identification of flood map update 
needs as part of the MHIP, to the scoping of the flood map update, to 
the preparation and adoption of the final maps.
    Through our web-based flood hazard data collection and delivery 
system, we will make component data, such as topographic data, 
available for use by our mapping partners as it is developed. This will 
allow for data quality verification at the State, regional, and local 
levels at numerous points in the flood map update process. These 
reviews will help to assure that the data reflect a level of analysis 
and effort commensurate with the flood risk faced by the mapped 
communities.
    In addition to providing access to the data as it is developed, we 
are assuring quality by providing data collection and processing tools 
for our partners and contractors to use in performing map update 
projects. These tools have been designed with quality checks built in 
to minimize errors and to assure internal consistency in the collection 
and processing of the data. To ensure the tools are used properly, we 
will provide appropriate training and support to the partners and 
contractors who are using the tools for map update projects.
    FEMA is using the latest Internet portal technology to allow State, 
regional, and local partners to obtain current status information on 
the progress of a map update. This access will give our partners a more 
significant role in the management of the program.
    Furthermore, FEMA has incorporated a quality standard into the 
performance measurement system for the program, and plans to establish 
an independent contract to perform independent verification and 
validation and to measure the quality of the products produced. The 
independent contractor also will help monitor the NSP's performance and 
verify that program outcomes are achieved.
    Finally, FEMA is continuing the very effective practice of 
requiring independent quality reviews as part of the flood map update 
process. This practice was institutionalized when we published our 
consolidated Guidelines and Specifications for Flood Hazard Mapping 
Partners in February 2002. We include the independent quality review 
requirement in all mapping project-related contract documents developed 
with our contractors and with participants in the CTP program. These 
independent reviews help to assure map updates are completed 
efficiently and are consistent with FEMA standards.
    By requiring independent quality reviews throughout the map update 
process, we are assuring that products resulting from each activity 
meet FEMA standards before the next activity is started. We also are 
assuring that the maps and related products and data are internally 
consistent. These reviews also provide an opportunity for providing 
task-specific training to partners who may not be completely familiar 
with FEMA quality standards. The frequent independent quality reviews 
also eliminate the costly rework that can result when an error is made 
early in the processing and is not identified before processing 
continues.
    Question. Is the schedule of trying to have completely revised, 
digitized flood maps for the entire country in 5 years realistic?
    Answer. Based on our current schedule, we believe our plan for 
preparing and distributing updated, digitized flood maps is realistic. 
However, we will be better prepared to provide a precise accounting of 
the type of engineering study to be performed in each county when we 
complete the development of our 5-year implementation plan (MHIP); 
scope the map update projects identified in coordination with State, 
regional, and local partners and stakeholders; and contract the 
required map updates with our contractors and participants in our CTP 
program.
    Question. Is $200 million a year still an accurate estimate of the 
cost for this project, not just to convert the old paper maps into 
digitized maps but to truly revise them with the most accurate flood 
plain data? Are we sacrificing quality at any level for quantity of 
maps completed?
    Answer. Based on the information we have to date, we believe the 
funding requested will be adequate to meet our initial program goals. 
We will validate our original program baseline and provide a precise 
accounting of when and how the funding will be expended later this 
year, after we have completed the development of our 5-year 
implementation plan (MHIP), scoped the map update projects identified; 
determined the contributions that may be made by State, regional, and 
local partners through the CTP program; and contracted the required map 
updates.
    One of the primary objectives that our NSP was asked to meet was 
the creation of credible flood maps for use by partners, stakeholders, 
and other users. The maps will reflect the best data available and will 
be appropriate for the level of risk associated with the mapped area.
    In addition, we have incorporated a quality standard into our 
program performance standards to ensure quality of maps produced.
    Question. Beyond the 5 years anticipated to complete the project, 
how much follow-on funding is anticipated in the out-years to maintain 
the digitized map?
    Answer. At the present time, we cannot formulate a precise cost for 
maintaining the digitized maps. The cost of maintaining the digitized 
maps will depend on several factors, including the total cost savings 
realized by eliminating routine production of paper maps (e.g., manual 
updates, warehousing), and the level of State and local participation 
in maintaining the new maps that will be realized by expanding our CTP 
program. We will be able to estimate the maintenance budget for the 
program after we complete our 5-year implementation plan (MHIP); 
coordinate with States, regional agencies, and local communities; and 
assess each State's desired level of program participation as 
identified in its State Business Plan.
                                 ______
                                 

               Question Submitted by Senator Ted Stevens

    Question. FEMA Region X has denied the use of Stafford Act disaster 
funds for two airports in Alaska (Northway Airport and Gulkana 
Airport). The repairs of these airports total $13,675,693. FEMA claims 
that it does not have the authority to perform these repairs and claims 
that the Federal Aviation Administration is authorized to perform these 
repairs. The FAA disagrees and claims that its agency lacks authority 
to provide for disaster repairs. Who has the legal responsibility for 
repairs to disaster damaged runways and airports?
    Answer. The appeal from the State of Alaska has been received and 
is currently under review. We will notify your office once a decision 
has been reached and the applicant has been informed.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. What percentage of fiscal year 2003 and fiscal year 2004 
EMPG funds are being used to pay salaries nationally? Please provide 
breakouts by State and include State and local government personnel 
expenses.
    Answer. In an attempt to be as responsive as possible to the 
questions of the Committee, we have developed the information in the 
table below. It is a statistical extrapolation based on budget levels 
for ``Personnel'' and ``Fringe Benefits'' submitted by the States on 
FEMA Form 20-20, ``Budget Information--Non-construction Programs.'' The 
States are not required to maintain or to submit detailed information 
on the exact percentages of their personnel costs funded with Emergency 
Management Performance Grant (EMPG) funds, therefore, we must emphasize 
that the data and methodology underlying this analysis are of known 
inadequacy, and the results below may not provide a complete or 
accurate assessment of the amount of EMPG funds used to pay salaries.
    The indications that we are able to derive from this analysis are 
that the amount of the Federal share of EMPG funds budgeted by the 
States for salaries and fringe benefits varies greatly, ranging from 
about 16 percent to about 72 percent. The average of the percentages 
was about 37 percent. For the Insular Areas, which are not required to 
share cost, the percentages ranged from about 56 to about 72 and 
averaged about 67 percent.
    Very little data is available for use of pass-through, or subgrant, 
EMPG funds for salaries and benefits at the local level. What we do 
have indicates that the number is higher than at the State level, 
probably averaging 80 percent or more.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                             Estimated
                                                                                                            Percent of                      Percent of
                      Reg./St. Name                        EMPG  Federal     Personnel        Fringe      Federal  Share     Estimated     Pass-through
                                                               Share                         Benefits     for  Salaries/   Pass-through      Salaries/
                                                                                                              Fringe                          Fringe
--------------------------------------------------------------------------------------------------------------------------------------------------------
National Totals.........................................     154,885,912      75,144,375      16,416,336           37.40     115,843,873  ..............
Region 1................................................      12,185,673       7,177,474       2,189,927           34.75       7,164,177  ..............
    Connecticut.........................................       2,407,428       1,477,757         603,221           43.22       1,404,291  ..............
    Maine...............................................       1,609,597         611,124         291,873           28.05       1,464,192  ..............
    Massachusetts.......................................       3,457,781       3,062,227         673,690           54.02       1,595,952  ..............
    New Hampshire.......................................       1,667,748         733,957         237,289           29.12         959,703  ..............
    Rhode Island........................................       1,599,677         891,015         285,125           36.76       1,136,623  ..............
    Vermont.............................................       1,443,442         401,394          98,729           17.32         603,416  ..............
    Region 2............................................      15,011,754       4,632,915       1,311,370           45.25       2,742,707  ..............
    New Jersey..........................................       4,139,084       1,031,739         201,641           29.80       1,672,122  ..............
    New York............................................       7,703,460       2,500,000         859,250           43.61         215,085  ..............
    Puerto Rico.........................................       2,536,400         737,895         156,026           35.24         855,500  ..............
    Virgin Islands......................................         632,810         363,281          94,453           72.33  ..............
Region 3................................................       7,329,496       5,003,332       1,383,750           46.67       6,025,436  ..............
    Delaware............................................  ..............  ..............  ..............  ..............  ..............  ..............
    District of Columbia................................       1,501,603       1,793,206         284,000           69.17         410,000  ..............
    Maryland............................................  ..............  ..............  ..............  ..............  ..............  ..............
    Pennsylvania........................................  ..............  ..............  ..............  ..............  ..............  ..............
    Virginia............................................       3,889,095       2,306,396         810,356           40.07       3,195,436  ..............
    West Virginia.......................................       1,938,798         903,730         289,394           30.77       2,420,000  ..............
Region 4................................................      29,591,145      18,954,422               0           33.48      25,329,569  ..............
    Alabama.............................................       3,823,967       3,696,461  ..............           48.33       2,500,000  ..............
    Florida.............................................       7,233,935       2,617,511  ..............           18.09       4,279,886  ..............
    Georgia.............................................       4,123,419       4,040,060  ..............           48.99       3,687,500  ..............
    Kentucky............................................       1,809,701       1,309,020  ..............           36.17       1,340,853
    Mississippi.........................................       2,318,816       1,521,486  ..............           32.81       1,936,342  ..............
    North Carolina......................................       4,253,671       2,399,006  ..............           28.20       5,149,520  ..............
    South Carolina......................................       2,669,936       1,320,078  ..............           24.72       3,317,468  ..............
    Tennessee...........................................       3,357,700       2,050,800  ..............           30.54       3,118,000  ..............
Region 5................................................      24,931,917      11,509,247       4,558,027           30.80      22,249,984  ..............
    Illinois............................................       5,580,907       3,608,501       1,479,486           45.58       2,927,069  ..............
    Indiana.............................................       3,365,504       1,200,538         497,218           25.22       4,288,816              87
    Michigan............................................       4,709,793       2,504,359       1,192,078           39.24       3,034,000  ..............
    Minnesota...........................................       2,972,911       1,294,766         455,809           29.44       3,547,586              78
    Ohio................................................       5,184,208       1,981,083         553,436           24.44       3,852,513              86
    Wisconsin...........................................       3,118,594         920,000         380,000           20.84       4,600,000              88
Region 6................................................      17,990,977       4,333,511       1,184,259           28.34      11,282,574  ..............
    Arkansas............................................       2,179,451       1,376,311         415,921           41.12         991,384              41
    Louisiana...........................................       2,791,271         673,366         121,206           28.47       1,581,860              93
    New Mexico..........................................       1,862,907         331,978         107,487           23.59       1,244,156              75
    Oklahoma............................................       2,415,000         531,156         137,871           27.70       1,764,007  ..............
    Texas...............................................       8,742,348       1,420,700         401,774           20.85       5,701,167              75
Region 7................................................       6,752,153       4,277,632       1,152,392           38.98       6,945,990  ..............
    Iowa................................................       1,600,520       1,094,279         364,760           45.58           5,000  ..............
    Kansas..............................................       1,511,233         850,063         212,712           35.16       3,230,491  ..............
    Missouri............................................       2,295,781       1,712,376         428,095           46.62       1,954,000  ..............
    Nebraska............................................       1,344,619         620,914         146,825           28.55       1,756,499  ..............
Region 8................................................      11,212,298       4,176,758       1,244,091           28.98      11,553,304  ..............
    Colorado............................................       2,899,310       1,079,936         152,671           21.26       3,949,354  ..............
    Montana.............................................       1,621,942         693,757         222,002           28.23       2,173,008  ..............
    North Dakota........................................       1,524,180         651,240         201,884           27.99       2,137,116  ..............
    South Dakota........................................       1,569,201  ..............            0.00  ..............  ..............
    Utah................................................       2,121,554         978,743         431,343           33.23       2,373,456  ..............
    Wyoming.............................................       1,476,111         773,082         236,191           34.19         920,370  ..............
Region 9................................................      21,734,734      10,460,851       1,968,488           48.28      12,300,869  ..............
    Arizona.............................................       3,123,049       4,104,686         416,372           72.38          45,308  ..............
    California..........................................      13,350,374       3,599,274         690,715           16.07       6,735,231  ..............
    Hawaii..............................................       1,676,149       1,338,168         431,158           52.78       2,022,655  ..............
    Nevada..............................................       1,992,530         646,106         201,491           21.27       3,036,516  ..............
    American Samoa......................................         431,942         243,092          46,176           66.97          10,756  ..............
    Guam................................................         589,350         299,847         117,248           70.77          84,365  ..............
    CNMI................................................         471,340         202,678          62,628           56.29         366,038  ..............
    FSM.................................................          50,000  ..............  ..............            0.00  ..............  ..............
    RMI.................................................          50,000          27,000           2,700           29.70          20,300  ..............
Region 10...............................................       8,145,765       4,618,233       1,424,032           42.81      10,249,263  ..............
    Alaska..............................................       1,173,241       1,223,577         429,905           70.47         693,000  ..............
    Idaho...............................................       1,501,310       1,090,683         368,881           48.61       1,543,055              63
    Oregon..............................................       2,205,226         721,252         274,074           22.57       3,415,126              79
    Washington..........................................       3,265,988       1,582,721         351,172           29.61       4,598,082  ..............
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. What percentage of fiscal year 2003 and fiscal year 2004 
EMPG are being used for homeland security activities nationally? Please 
provide this information for each State.
    Answer. State and local entities have not been required to maintain 
detailed reports which segregate their program expenditures on a 
percentage-of-use basis.
    That being said, FEMA would contend that very nearly all of the 
State and local emergency management agencies' resources are being used 
for all-hazards preparedness activities, including terrorism. The 
capabilities developed and maintained in such areas as training, 
exercising, command and control, communications, and even 
administration are essential for homeland security (as broadly defined) 
as well as for hurricanes, earthquakes, floods, hazardous materials 
accidents, plane crashes--any and all mass-casualty situations.
    Question. On what equipment, training and exercises were the fiscal 
year 2003 fire grants spent? What was requested?
    Answer. Below is a list of eligible equipment and training under 
the Assistance to Firefighters Grant Program. Approximately $440 
million to $460 million was expended in fiscal year 2003 on these kinds 
of items. These represent 80-85 percent of the activities supported for 
and applied for under the Fire Operations and Firefighter Safety and 
Emergency Medical Services (EMS) program areas. The Fire Operations and 
Firefighter Safety program area is the largest request area in the 
program, representing 13,888 of the 20,136 applications initially 
submitted, and nearly $1.377 billion of the $2.468 billion (inclusive 
of non-Federal share) requested. EMS applications totaled 216 for 
$14,145,120.

                      Basic Firefighting Equipment

Adapters, Wyes, & Siamese
Foam eductors and foam concentrate
Hose--(3\1/2\ inches or less)
Hose--Large Diameter (LDH 4 inches or larger)
Hydrant and spanner wrenches
Ladders
Nozzles
Portable deluge sets
Power saws
Ropes, harnesses, carabineers, pulleys, etc.
RIT pack
Wildland
Other basic equipment
                             Communications
Base station
Computer aided dispatch (CAD)
Computers
Headsets
Mobile radios
Mobile date terminal (MDT)
Pagers
Two-way pagers
Portable radios
Repeaters
Other communications
                                  EMS
ALS airway equipment
BLS airway equipment
Suction
Automated external defibrillators (AED)
Defibrillator/monitor
Blood pressure cuffs
Pen lights
Pulse oximeters
Stethoscopes
Thermometers
Backboards
Cervical collars
Splints
Vest extrication devices
Other EMS
                               EMS/Rescue
AEDs
Powered/mechanical extrication tools/equipment
Stretchers, backboards, splints, etc.
Technical rescue equipment
Various supplies
Other EMS/rescue
                      Hazardous Materials (Hazmat)
Computers
Decontamination, clean-up, containment, and packaging equipment
Monitoring and sampling devices
Reference library
Spark-proof tools
Suppression
Other Hazmat
                             Investigation
Cameras
Lights, portable
Computers
Monitoring and sampling devices
Hand tools
Other investigation
                              Specialized
All-terrain vehicles
Rehab equipment
Compressors/cascade/fill station (fixed)
Skid unit
Compressors/cascade/fill station (mobile)
Thermal imaging devices
Fixed generator
Washer
Portable/mobile generator
Boats (13 feet in length and under)
Portable pump
Other specialized
                personal protective equipment (ppe) list
                               Structural
Helmets
Pants, coats
Boots
Goggles
Gloves
Hoods
PASS devices
Accountability systems
Flashlights
Complete set of turnout
Hearing protection
                              Respiratory
Self-contained breathing apparatus (SCBA)--30 minutes with face piece--
no extra bottle
SCBA--30 minutes with face piece--with extra bottle
SCBA--45 minutes with face piece--no extra bottle
SCBA--45 minutes with face piece--with extra bottle
SCBA--60 minutes with face piece--no extra bottle
SCBA--60 minutes with face piece--with extra bottle
Spare cylinders-30 minutes
Spare cylinders-45 minutes
Spare cylinders-60 minutes
Face pieces
Respirators
Air-line units
                                Wildland
Helmets
Boots
Goggles
Gloves
Pants, coats
Jumpsuits/coveralls
Accountability systems
Shelters
Canteens
                   Weapons of Mass Destruction (WMD)
SCBA/chemical/biological/radiological/nuclear environment respirators
Chemical/Biological Suits (Must conform to NFPA 1994, 2001 edition)
Other WMD-related PPE
                               Other PPE
Encapsulated Suits
Tyveck suits
Splash suits
Escape masks
Proximity and entry suits
Wet and dry suits
Infection control
                      training program titles list
Operations (NFPA 472)
Firefighter I, Firefighter II (NFPA 1001)
Instructor Training (NFPA 1041)
Driver/Operator (NFPA 1002)
Officer Training (NFPA 1021)
Basic Wildland Firefighting
Wildland Firefighter Certification
Airport Rescue Firefighting (ARFF) (NFPA 1003)
RIT Training
Confined Space Rescue--Awareness level
Vehicle Rescue
Technical Rescue/Urban Search and Rescue--Awareness level (NFPA 1670/
1006)
Technical Rescue/Urban Search and Rescue--Operations level (NFPA 1670/
1006)
Technical Rescue/Urban Search and Rescue--Technician level (NFPA 1670/
1006)
Hazmat--Technician/Specialist level
Infection Control (NFPA 1581)
Medical First Responder Training
Emergency Medical Technician--Basic (EMT B)
Emergency Medical Technician--Intermediate (EMT I)
Paramedic Training (EMT-P)
Mass Casualty Incident Training (MCI)
NIIMS (Unified Command)
Incident Management Course (IMC)
Integrated Emergency Management Course (IEMC)
Fire Inspector (NFPA 1031)
Fire Investigator (NFPA 1033)
Fire Educator (NFPA 1035)
Telecommunications/Dispatcher
Safety Officer

    Question. TOPOFF 2 highlighted the fact that a large-scale 
bioterrorism attack does not qualify as a Major Disaster under the 
Stafford Act. How did the Emergency declaration differ from the 
response and resources that a Disaster would have triggered? Is a 
legislative change to the Stafford Act necessary? Will you request such 
a change?
    Answer. The scenario in TOPOFF 2 did result in an emergency 
declaration. The Stafford Act provides authority for the President to 
declare either a major disaster or an emergency, as a situation may 
warrant. In the case of TOPOFF 2, where the nature of the incident was 
not one contemplated for major disaster declarations, an emergency 
declaration was determined to be appropriate. The emergency declaration 
makes available the same response resources and assistance as would be 
available for a major disaster. It also makes available assistance for 
individuals under the Individuals and Households Program. The primary 
difference in assistance that would be available under a major 
disaster, but not for an emergency declaration, is assistance for the 
repair, replacement, and restoration of public facilities that sustain 
physical damage from the event. This was not a factor in the 
bioterrorism attack in TOPOFF 2, nor would it be expected to be a 
factor in such types of events in general. In contrast, should a 
terrorist event also include fire or explosion, it then would be within 
the type of event contemplated as a major disaster under the Act; as a 
practical matter, public assistance would then be available to address 
physical damages likely to occur in such cases. Accordingly, it is 
FEMA's position that the types of events that are addressed by major 
disaster or emergency declarations, respectively, are adequate and 
appropriate to the types of assistance available under the respective 
declaration authorities of the Stafford Act.
    Question. What is currently contained in the Strategic National 
Stockpile? How will fisccal year 2004 and proposed fiscal year 2005 
funds be spent? How much anthrax vaccine is needed? From where will the 
Department procure the needed anthrax vaccine, and how long will the 
process take?
    Answer. The Strategic National Stockpile currently contains anthrax 
exposure treatments, smallpox vaccine, nerve agent treatment, and 
radiation countermeasures, as well as a limited amount of botulinum 
antitoxin.
    Proposed Stockpile funding for fiscal year 2004 and fiscal year 
2005 will be used to sustain its 12-Hour Push Packages and Vendor 
Managed Inventory, to increase stocks for anthrax antibiotics and 
vaccine, to purchase smallpox vaccine, and to develop botulinum 
antitoxin plasma. The Weapons of Mass Destruction (WMD) Medical 
Countermeasures subcommittee, an interagency group co-chaired by the 
Department of Health and Human Services (HHS), DHS, and the Department 
of Defense, has recommended the eventual procurement of enough anthrax 
vaccine to inoculate 25 million people.
    HHS will be the procurement agent for the anthrax vaccine and will 
request proposals for the vaccine development. The time requirement for 
the actual procurement of the vaccine will be dependent on clinical 
trials and Food and Drug Administration (FDA) licensure processes.
    The Stockpile currently maintains a small amount of the only FDA-
licensed pre-exposure vaccine against anthrax (Anthrax Vaccine 
Adsorbed, or AVA). Currently, it has limited production capacity, and 
rectifying that problem would be very expensive and take several years 
to accomplish. AVA is not currently licensed for children or for the 
elderly. However, in order to ensure that some type of anthrax vaccine 
is available until the development and procurement of rPA, DHS and HHS 
have signed an interagency agreement for the purchase of AVA through 
the Department of the Army. This agreement will provide approximately 2 
million doses in fiscal year 2004, 1.5 million doses in fiscal year 
2005, and 1.5 million doses in fiscal year 2006.
    Question. Please detail how the fiscal year 2004 and fiscal year 
2005 proposed funding for Project BioShield will be spent.
    Answer. Over the past 10 months, the WMD Medical Countermeasures 
subcommittee has developed countermeasures information of interest to 
administration policymakers who will make the BioShield procurement 
decisions. The WMD subcommittee commissioned an end-to-end analysis of 
medical countermeasures to Category ``A'' biological agents (anthrax, 
smallpox, plague, botulinum toxin, tularemia, Ebola, and other 
hemorrhagic fever viruses). Working groups developed initial 
requirements for four high-priority bioweapon countermeasures for which 
there is high need and a reasonable expectation that products will be 
available in the near term:
  --Next generation anthrax vaccine (recombinant Protective Antigen, 
        rPA)
  --Anthrax immune therapy
  --Next generation smallpox vaccine (modified vaccinia, MVA or LC16m8)
  --Botulinum antitoxin
    Question. Provide the status of the Disaster Relief Fund. What are 
the carryover funds from fiscal year 2004, current balance?
    Answer. As of March 10, 2004, the unobligated balance in the 
Disaster Relief Fund was $1.813 billion. The fiscal year 2005 budget 
request includes an estimated carryover of $453 million from fiscal 
year 2004 into fiscal year 2005.
    Question. What is the justification for requesting $0 for the 
Metropolitan Medical Response System? Provide a legislative history of 
MMRS, including its genesis and original intent. What costs are 
incurred by EP&R, and what costs are incurred by local governments? 
What will EP&R's role be in the MMRS if no funds are appropriated in 
fiscal year 2005? How many cities are expected to continue the program 
without Federal resources support?
    Answer. The funds that Congress has appropriated for the 
Metropolitan Medical Response System (MMRS) over the last several years 
have been used to establish certain capabilities, to get the program up 
to its baseline, and to facilitate transfer of the program to the 
localities for continuation, once the baseline is established. We will 
reach the baseline this fiscal year (2004), and therefore no additional 
funding is being requested. Since 1995, the Federal Government has 
publicly articulated a necessity to improve planning and response to 
acts of terrorism involving WMD. The Defense Against Weapons of Mass 
Destruction Act of 1996, Public Law 104-201, states in Section 1412--
Emergency Response Assistance Program, paragraph (h)(2), ``Of the 
amount available for the program pursuant to paragraph (1), $10,500,000 
is available for use by the Secretary of Defense to assist the 
Secretary of Health and Human Services in the establishment of 
metropolitan emergency medical response teams (commonly referred to as 
`Metropolitan Medical Strike Force Teams') to provide medical services 
that are necessary or potentially necessary by reason of a use or 
threatened use of a weapon of mass destruction.''
    In 1997, HHS initiated the MMRS program to provide support for the 
development of a response system in the event of a terrorist attack. On 
March 1, 2003, the MMRS program was transferred to DHS.
    DHS is responsible for sponsoring the MMRS program, a system-based 
approach to mass casualty/surge capacity preparedness and response, 
developed to enhance existing local first responder, medical, public 
health, and emergency planning in the event of a terrorist attack. 
Through contracts administered by FEMA, DHS is responsible for 
providing funding and technical assistance to plan, develop, equip, and 
identify training to local governments in 125 identified jurisdictions, 
based on threat and population.
    MMRS program duties have been absorbed as additional duties by 
existing FEMA staff. Costs to absorb these duties include approximately 
$770,000 to fund regional salaries, set at 50 percent of the time for 
18 staff members currently administering the program; approximately 
$408,000 to fund two staff years at the Noble Training Center and two 
staff years at headquarters; and an estimated $350,000 for travel. 
There are no cost-sharing requirements for local governments.
    Secretary Ridge has proposed a reorganization (a letter was sent to 
Members of Congress on January 26, 2004), wherein the MMRS program for 
fiscal year 2004 will be transferred to a newly established Office of 
State and Local Government Coordination and Preparedness. Under this 
arrangement, FEMA would have no further role in the MMRS program for 
fiscal year 2004, and there will be no Federal program in fiscal year 
2005.
    We cannot precisely estimate the number of local jurisdictions that 
would continue the MMRS program without Federal resources support. We 
are fairly certain that a large number of them, as an element of 
prudent preparedness and operational necessity, will attempt to 
maintain MMRS-type mass casualty integrated response preparedness and 
seek to use Federal funds from other programs to support eligible 
portions of MMRS-type capabilities.
    Question. Provide specific examples of capacity at the Department 
of Housing and Urban Development that FEMA does not have for operating 
the Emergency Food and Shelter program.
    Answer. The Department of Housing and Urban Development (HUD) is 
the primary Federal agency responsible for the administration of 
homeless assistance programs. While FEMA has successfully administered 
the Emergency Food and Shelter (EFS) program over the years, there are 
ways that the program could be improved by moving it to HUD. 
Specifically, the following examples demonstrate the capacity of HUD to 
operate the program:
  --HUD, as mandated by Congress, is currently assessing all homeless 
        assistance programs to determine the need for structural 
        changes to the programs in order to address the President's 
        goal to end homelessness in the next 10 years. The EFS program 
        is the only homeless assistance program not included in this 
        assessment. In order to ensure an integrated approach to 
        assisting persons facing housing emergencies and to meet this 
        goal, it would be more logical for the program to be 
        administered by HUD. FEMA does not have the capacity to perform 
        this requirement.
  --HUD is able to link housing and supportive services for chronically 
        homeless persons to other comprehensive services through its 
        numerous other homeless assistance programs and mainstream 
        housing programs. FEMA does not have any other homeless 
        assistance programs.
  --HUD has the staffing and financial resources to improve the 
        administration and delivery of the EFS program.
  --HUD has the capacity to ensure that homeless assistance/prevention 
        programs are not duplicative, allowing for scarce resources to 
        be utilized more efficiently and effectively. Currently, the 
        EFS program provides funding to the same agencies that HUD 
        programs fund for the same services and individuals. FEMA does 
        not have the capacity to monitor which agencies are duplicating 
        services.
  --As FEMA's mission evolves under the Department of Homeland 
        Security, its resources must be focused entirely on natural 
        disasters and catastrophic events, such as the terrorist 
        attacks of 9/11. The EFS program does not fit within the goals 
        and objectives of DHS or of FEMA.
    Question. How many staff vacancies do you have in EP&R at this 
time?
    Answer. Vacancies in directly funded programs total 256. This 
excludes the Disaster Relief Fund and 88 newly funded positions in the 
Mitigation program for Flood Map Modernization and Pre-disaster 
Mitigation activities.
    Question. Provide the numbers of FTE that have been detailed and 
transferred out of FEMA since the Department was created. From which 
offices were the transfers made, and to which offices did FTE go?
    Answer. In fiscal year 2003, there were 200 FTE budgeted for FEMA's 
Office of Inspector General, which transferred in its entirety to the 
Department. The only transfers of positions that have occurred are 
those positions associated with the Office of Inspector General; no 
other FEMA positions have been transferred. FEMA has documented 
approximately 85 FTE details since March 1, 2003, to various components 
of the Department.
    Question. Provide the number of positions (filled and unfilled) and 
the Salaries and Expense funds spent within each FEMA office, before 
February 1, 2003 and currently. Please indicate which positions are in 
the regional offices and the headquarters offices. Do not include EP&R 
FTE detailed out of the Directorate.
    Answer. The tables below provide the positions and Salaries and 
Expense in FEMA as of February 1, 2003, and as of February 21, 2004.

                              FEBRUARY 2003
------------------------------------------------------------------------
                                                Positions
------------------------------------------------------------------------
          Organization           Encumbered   Vacant  TOTAL \1\    S&E
------------------------------------------------------------------------
Office of Director.............         15         4        19      $968
National Security..............         27        20        47       905
General Counsel................         31         3        34     1,184
Equal Rights...................         10         0        10       283
Regional Operations............          3         0         3       107
Inspector General..............    ( \2\ )   ( \2\ )   ( \2\ )   ( \2\ )
External Affairs...............         52         7        59     1,853
Administration & Resource                4         1         5       210
 Planning \3\..................
Human Resources................         62         2        64     2,103
Financial & Acquisition                130        21       151     4,365
 Management....................
Facilities Management..........         64         7        71     7,876
Response & Recovery............        327        69       396    12,675
Fed. Insurance & Mitigation....        153        27       180     5,607
U.S. Fire Administration.......        196         7       203     6,272
National Preparedness..........         74         7        81     2,759
Information Technology.........        191        17       208     6,867
                                ----------------------------------------
      Subtotal Headquarters....      1,339       192     1,531    54,033
                                ----------------------------------------
      Subtotal Regions.........        771        45       816    25,991
                                ----------------------------------------
      TOTAL....................      2,110       237     2,347    80,024
------------------------------------------------------------------------
\1\ In 2003, encumbered total excludes positions funded under Disaster
  Relief and the Working Capital Fund.
\2\ Inspector General (IG) personnel activity was handled by Bureau of
  Public Debt. In fiscal year 2004, the entire IG office was transferred
  to the Department of Homeland Security.
\3\ Office abolished in 2003.


                              FEBRUARY 2004
------------------------------------------------------------------------
                                                Positions
------------------------------------------------------------------------
          Organization           Encumbered   Vacant  TOTAL \1\    S&E
------------------------------------------------------------------------
Office of the Under Secretary..         22         4        26    $1,022
National Security..............         38        12        50     1,579
General Counsel................         32         3        35     1,221
Equal Rights...................          9         1        10       275
Regional Operations............          3         1         4       106
External Affairs...............         40        14        54     1,643
Human Resources................         55        10        65     1,711
Financial & Acquisition                140        16       156     4,504
 Management....................
Facilities Management..........         60         8        68     8,009
Recovery.......................         73         7        80     2,939
Mitigation.....................        148        32       180     5,662
Preparedness...................        249        38       287     8,006
Response.......................        314        51       365    13,582
Information Technology.........        174        22       196     7,013
                                ----------------------------------------
      Subtotal Headquarters....      1,357       219     1,576    57,272
                                ----------------------------------------
      Subtotal Regions.........        770        37       807    25,966
                                ----------------------------------------
      TOTAL....................      2,127       256     2,383    83,238
------------------------------------------------------------------------
\1\ In 2004, encumbered total excludes positions funded under Disaster
  Relief, National Disaster Medical System, and the Working Capital
  Fund.

    Question. Also please provide the number of Senior Executive 
Service positions which FEMA had on Feb. 1, 2003 and the number it has 
now. Please include the filled and vacant, indicate political and 
career and the division or department. If a position has been moved, 
indicate where it was located before and to where it has been 
transferred.
    Answer. The tables that follow provide the number of Senior 
Executive Service (SES) positions in FEMA. FEMA has a set number of SES 
slots that the Under Secretary can use for any SES position. Each time 
an SES position becomes vacant, the slot returns to the Under 
Secretary's ``SES pool'' and the Under Secretary can reallocate it to 
another FEMA organization based on a determination of the most critical 
SES need. As the charts indicate, from February 2003 to March 2004, 
some SES positions were realigned to best support new mission critical 
responsibilities.
    There was no net change in the number of FEMA's allocated SES slots 
between February 2003 and March 2004. In February 2003, FEMA's 
allocation was 54 permanent slots and one term allocation for a total 
of 55 slots.
    As a result of FEMA's transition into DHS, 2 slots were transferred 
(the only 2 SES slots transferred outside of FEMA) to the DHS Office of 
the Inspector General (OIG). Although OIG originally had three 
incumbents, one had retired. However, DHS provided 2 slots from its 
overall allocation to FEMA for 2 positions in the Office of the Under 
Secretary.
    The term appointee in the Information Technology Services Division, 
identified in the February 2003 order, resigned and the one slot was 
lost. However, again as a result of transitional activities, one slot 
was transferred to FEMA from the Department of Health and Human 
Services as an encumbered position. Therefore, FEMA's allocation was 
then and is now 55 slots.

                                FEBRUARY 2003 FEDERAL EMERGENCY MANAGEMENT AGENCY
----------------------------------------------------------------------------------------------------------------
                                                        Encumbered  Encumbered  Encumbered
                     Organization                         Career    Non-Career     Term       Vacant     Total
----------------------------------------------------------------------------------------------------------------
Office of the Director................................           2           1  ..........          1          4
Office of National Security Coordination..............  ..........  ..........  ..........          1          1
Office of the General Counsel.........................  ..........  ..........  ..........          2          2
External Affairs Division.............................  ..........           1  ..........          2          3
Administration & Resource Planning Division...........  ..........           1  ..........  .........          1
Human Resources Division..............................  ..........           1  ..........  .........          1
Finance & Acquisition Management Division.............           2  ..........  ..........  .........          2
Facilities Management & Services Division.............           2  ..........  ..........  .........          2
Mt. Weather Emergency Operations Division.............           1           1  ..........  .........          2
Response & Recovery Directorate.......................           5           1  ..........      \2\ 2          8
Federal Insurance & Mitigation Directorate............           6  ..........  ..........  .........          6
U.S. Fire Administration..............................           2           1  ..........  .........          3
Office of National Preparedness.......................           1  ..........           1  .........          2
Office of the Inspector General \1\...................           3  ..........  ..........  .........          3
Information Technology Services Division..............           5           1           1  .........          7
Region 1..............................................  ..........           1  ..........  .........          1
Region 2..............................................  ..........  ..........  ..........          1          1
Region 3..............................................  ..........  ..........  ..........          1          1
Region 4..............................................           1  ..........  ..........  .........          1
Region 5..............................................  ..........           1  ..........  .........          1
Region 6..............................................  ..........           1  ..........  .........          1
Region 7..............................................  ..........           1  ..........  .........          1
Region 8..............................................  ..........           1  ..........  .........          1
Region 9..............................................  ..........           1  ..........  .........          1
Region 10.............................................  ..........           1  ..........  .........          1
                                                       ---------------------------------------------------------
      Total...........................................          30      \4\ 15           2          8     \3\ 57
----------------------------------------------------------------------------------------------------------------
\1\ Determination order of February 2003 did not include OIG SES members since they received personnel services
  from the Bureau of Public Debt.
\2\ Two additional vacancies were listed on determination order (which were subsequently canceled).
\3\  SES slots allocation (maximum number that could be filled) was 55.
\4\ Ceiling of 19 non-career (political).


                              MARCH 10, 2004 DEPARTMENT OF HOMELAND SECURITY (FEMA)
----------------------------------------------------------------------------------------------------------------
                                                        Encumbered  Encumbered  Encumbered
                     Organization                         Career    Non-Career     Term       Vacant     Total
----------------------------------------------------------------------------------------------------------------
Office of the Under Secretary--Emergency Preparedness            3           2  ..........          2          7
 & Response...........................................
Office of National Security Coordination..............  ..........           1  ..........  .........          1
Office of the General Counsel.........................  ..........  ..........  ..........          1          1
Office of External Affairs Coordination...............  ..........  ..........  ..........          1          1
Human Resources Division..............................  ..........  ..........  ..........          1          1
Finance & Acquisition Management Division.............           2  ..........  ..........          1          3
Facilities Management & Services Division.............           1  ..........  ..........          1          2
Mt. Weather Operations................................           2           1  ..........  .........          3
Response Division.....................................           3  ..........           1          2          6
Recovery Division.....................................           2           1  ..........          2          5
Mitigation Division...................................           4  ..........  ..........          2          6
Preparedness Division.................................           2           1  ..........          1          4
Information Technology Division.......................           5  ..........  ..........  .........          5
Region 1..............................................  ..........  ..........  ..........          1          1
Region 2..............................................  ..........  ..........           6          1          1
Region 3..............................................  ..........  ..........  ..........          1          1
Region 4..............................................           1  ..........  ..........  .........          1
Region 5..............................................  ..........           1  ..........  .........          1
Region 6..............................................  ..........           1  ..........  .........          1
Region 7..............................................  ..........           1  ..........  .........          1
Region 8..............................................  ..........           1  ..........  .........          1
Region 9..............................................  ..........           1  ..........  .........          1
Region 10.............................................  ..........           1  ..........  .........          1
                                                       ---------------------------------------------------------
      Total...........................................          25      \1\ 12           1         17         55
----------------------------------------------------------------------------------------------------------------
\1\ Ceiling of 19 non-career available for fill.

    Question. Please describe how the amounts of CAP-SSSE funds 
provided to each State are determined. Describe the States' 
responsibilities and how they've changed, if at all, in recent years. 
As income associated with the Federal policy fee has increased, have 
funds provided by FEMA to the States increased proportionally?
    Answer. The purpose of the Community Assistance Program--State 
Support Services Element (CAP-SSSE) is to provide, through a State 
grant mechanism, a means to ensure that communities participating in 
the National Flood Insurance Program (NFIP) are achieving the flood 
loss reduction objectives of the NFIP. CAP-SSSE is intended to 
accomplish this by funding States to provide technical assistance to 
NFIP communities and to evaluate community performance in implementing 
NFIP floodplain management activities with the goal of building 
community and State floodplain management expertise and capability. 
Using CAP-SSSE funding, States now provide a significant portion of the 
technical assistance to NFIP communities. Without this State support, 
FEMA regions would not have enough staff to implement the program. CAP-
SSSE capitalizes on partnering with the staff of State agencies to 
provide this assistance.
    CAP-SSSE grant fund allocations to States are determined by the 
FEMA regional offices. In general, States are provided a baseline 
funding amount to develop basic floodplain management capabilities to 
assist the FEMA regions in providing technical assistance to 
communities. After the baseline amount is established, other factors 
such as the number of participating communities in the State, 
population growth rate, and number of NFIP insurance policies, as well 
as each State's capability to provide assistance and overall technical 
support needs, are considered in determining the final allocations. All 
States participate in the program and receive funds in varying amounts. 
FEMA regional offices and the designated State agency negotiate a CAP-
SSSE agreement that specifies activities and products to be completed 
by a State in return for CAP-SSSE funds. There is a 25 percent non-
Federal match for all States receiving CAP-SSSE funds. In some cases, a 
State's ability to provide the required funding match may affect 
funding levels.
    In recent years, States' responsibilities have been changing in 
order to support nationwide map modernization implementation. 
Specifically, States have been more involved in map modernization 
planning activities to assist in implementing this important 
initiative. Finally, CAP-SSSE grant funds are not directly linked to 
Federal policy fee income. However, total CAP-SSSE funds have increased 
by 40 percent over the past 2 years to assist States in their 
floodplain management activities and in meeting the challenges of map 
modernization.
    Question. When will DHS release 2004 CAP-SSSE funds to the FEMA 
Regions for distribution to the states?
    Answer. Fiscal year 2004 CAP-SSSE funds were released to the FEMA 
regions in November 2003. Many States have already received their 
fiscal year 2004 CAP-SSSE funding allocation. Some of the FEMA regions 
are still negotiating with the States regarding the content of the 
State Work Plans. Once the State Work Plans are finalized and approved, 
the remaining funds will be awarded.
    Question. Are all of the Federal Personnel paid with funds 
collected from the Federal Policy fee working directly on National 
Flood Insurance Program projects?
    Answer. Yes. Each year we carefully monitor the program assignments 
paid from the National Flood Insurance Fund to ensure that those 
Federal employees are performing NFIP work.
    Question. Describe how DHS and HUD are working together to assure 
that HUD regulations address installation of manufactured homes 
specifically in flood hazard areas.
    Answer. On December 27, 2000, the Manufactured Housing Improvement 
Act (MHIA) became law (Public Law No. 106-569) and for the first time 
established a requirement that HUD develop national model manufactured 
home installation standards. DHS has participated in this development 
process by submitting to the non-Federal consensus committee, 
established by the MHIA, proposed flood disaster-resistant provisions, 
consistent with NFIP, which would apply to manufactured homes sited in 
flood hazard areas. On December 18, 2003, the consensus committee 
approved DHS' proposed provisions and included them in the final 
recommended national model manufactured home installation standards 
submitted to the HUD Secretary. In accordance with the law, the HUD 
Secretary has 1 year (December 18, 2004) in which to act on these 
recommended standards.
    Question. Will DHS coordinate with HUD to include in existing 
Federal regulations (24 CFR Part 3282.303(c)), a requirement that State 
administrative agency plans must require licensed installers and/or 
dealers to determine whether a proposed manufactured housing site is 
located in a FEMA identified flood hazard area before installation?
    Answer. Changes to 24 CFR Part 3282.303(c) are not anticipated by 
HUD. Rather, under the MHIA, State installation programs for their 
licensed installers and/or dealers must include standards that meet or 
exceed the protection provided by the national model manufactured home 
installation standards that are currently being developed by HUD. A key 
provision of the model standards reads, ``Prior to the initial 
installation of a manufactured home, it shall be determined whether the 
home site lies wholly or partly within a special flood hazard area.'' 
In this way, States will be fulfilling 3282.303(c) in assuring that 
homes are properly installed in their States.
    Question. Will DHS coordinate with HUD to require manufacturers 
installation manuals to specifically state whether model installation 
designs are intended for use in flood hazard areas?
    Answer. Under the MHIA, manufacturers shall provide with each home 
designs and instructions for the installation of the manufactured home 
that have been approved by a design approval primary inspection agency 
(DAPIA). Once the national model installation standards have been 
established, DAPIAs may not issue approvals unless the designs and 
instructions for installation provide equal or greater protection than 
the protection provided under the national model standards. A key 
provision in the new national model installation standards is that 
manufactured homes located wholly or partly within flood hazard areas 
shall be installed using methods and practices that minimize damage in 
accordance with the flood damage reduction requirements contained in 
the NFIP regulations. Specific to foundation systems used in the 
manufacturers' instructions, the standards also require that, in flood 
hazard areas, the piers, anchoring, and support systems shall be 
capable of resisting loads associated with design flood and wind 
events.
    Question. What priority are you giving to preparing new floodplain 
delineations to replace or refine approximated flood hazard areas, 
rather than simply converting them to a digital format? How much of the 
fiscal year 2005 request for flood map modernization will be spent on 
preparing new floodplain delineations? On digitization of existing 
paper maps?
    Answer. FEMA's current priority is working with States and local 
governments to identify those communities at greatest risk and to 
provide updated geospatial data. The long-term performance goal for the 
Multi-Hazard Flood Map Modernization Program is for the U.S. population 
to have up-to-date digital flood hazard data and maps for flood-prone 
areas. FEMA is developing flood data and producing maps for communities 
that reflect the level of analysis and effort commensurate with the 
flood risk faced by each community. Part of the mapping process 
involves a needs assessment during which FEMA works with the local 
community to determine mapping needs and to assess whether existing 
local data are sufficiently accurate to meet local needs and NFIP 
criteria. All assessments will be coordinated with States, regional 
agencies, and local communities.
    During the next 6 months, FEMA will be working with national, 
State, and local partners and stakeholders to assemble an integrated 5-
year implementation plan for the Multi-Hazard Flood Map Modernization 
Program. We will use the plan to establish goals and baseline with 
existing priorities; to document and understand flood map update needs 
identified by State, regional, and local partners and stakeholders; and 
to develop prioritization criteria and a sequence for scoping counties 
and watersheds in the priority areas based on floodplain management, 
hydrologic, hydraulic, and terrain needs. The plan that will be 
developed is the MHIP for fiscal years 2004-2008.
    FEMA will provide a precise accounting of the new engineering 
studies and floodplain boundary delineations once we complete the 
development of the MHIP; will scope the map update projects identified 
in coordination with State, regional, and local partners and 
stakeholders; will determine the contributions that may be made by 
State, regional, and local partners through the Cooperating Technical 
Partners (CTP) program; and will contract the required map updates with 
our contractors and with participants in our CTP program.
    FEMA plans to update the flood maps based on the level of flood 
risk associated with an area and the accuracy of the existing data for 
that area. For some areas, there may not be a need to perform a new 
engineering study because the flood hazards and related risk are 
accurately portrayed on the flood map and are appropriate for the area. 
For example, for recently mapped areas, we will use the accurate 
available data to create a digital map.
    Our modernization effort is predicated on using the best available 
data and clear data standards. To that end, it is not our intention to 
convert inaccurate flood maps to a digital format.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

    Question. I have noted that the Emergency Preparedness and Response 
Directorate, which includes the Federal Emergency Management Agency 
(FEMA), has slowly shifted its emphasis from all-hazards to terrorism. 
The President's budget request includes legislative language that would 
give ``priority to homeland security activities.'' The intent of FEMA, 
however, was to insure broad-based, all-hazards approaches to State and 
local preparedness and response efforts. This shift is cause for great 
concern.
    I strongly believe that a reliable emergency infrastructure--
adequately resourced at the Federal, State and local levels--must build 
upon the all-hazards emergency management approach and address the 
needs of the entire emergency system, including, but not limited to: 
law enforcement, fire, emergency medical services, public health, the 
911 communications system and emergency management. Currently, a 
greater focus on terrorism has increased the role of emergency managers 
and the immediate needs of all responders to ensure adequate 
preparedness. Meanwhile, natural hazards continue to be the pervasive 
disaster that occurs regularly. In 2003, for example, there were 56 
major disaster declarations, 19 emergency declarations and 46 fire 
suppression authorizations--none of which were terrorist-related.
    Mr. Brown, would you agree that natural disaster preparedness must 
not suffer as a result of homeland security efforts, but rather should 
be viewed as the most frequent opportunity to validate domestic 
preparedness efforts and to also build best practices? If not, please 
explain why you think our emergency response system must be focused on 
terrorism rather than all-hazards and how that benefits us.
    Answer. Although the Department of Homeland Security is focused on 
terrorism and protecting the homeland, the President, Secretary Ridge, 
and I are committed to an all-hazards approach of preparedness, 
response, and recovery from all events, including natural disasters. 
Recent efforts to improve response to and recovery from a terrorism 
event do not diminish FEMA's commitment to dealing with the destruction 
of a natural disaster--just the opposite. FEMA has enjoyed a long 
history of focusing on all hazards, and I believe that being part of 
DHS has strengthened that approach. As you mention, FEMA has 
successfully continued to respond to and recover from a multitude of 
natural disasters in the past year. At the same time, these efforts do 
provide us with opportunities to better prepare not only for terrorism 
events, but also for catastrophic events, whether they be natural or 
caused by terrorism.
    Question. The President's fiscal year 2005 budget request for the 
Department of Homeland Security (DHS) proposes changes to the Emergency 
Management Performance Grants (EMPG) Program that would severely impact 
State and local emergency management. In the fiscal year 2003 
Consolidated Appropriations law (Public Law 108-7), Congress called the 
EMPG Program ``the backbone of the Nation's emergency management 
system.'' In fiscal year 2004, Congress increased EMPG funding to $179 
million, directed that EMPG would remain in the Emergency Preparedness 
and Response Directorate where the focus is an all-hazards approach to 
emergency management, and ordered the continuation of funding personnel 
expenses.
    I was surprised to read, therefore, that the President's fiscal 
year 2005 request cuts EMPG funding by $9 million and also proposes a 
25 percent cap on the use of funds to support personnel salaries. Since 
the functions of emergency management are almost 100 percent personnel 
driven (i.e., planning, coordinating, exercise design, public 
education, and hazards at the State and local levels and would result 
in losses of 70 percent of their emergency management staff response to 
and recovery from actual incidents), this provision would have a 
devastating effect on emergency management agencies nationwide. The cap 
would eliminate current personnel responsible for planning for and 
responding to all
    Mr. Brown, now is the time when we should be building the capacity 
of our Nation's emergency management agencies. Why, then, is this 
Administration seeking to weaken it?
    Answer. The EMPG personnel cap is intended to ensure that State and 
local governments assume responsibility for their personnel costs. 
Effective State and local emergency management capability is not the 
primary responsibility of the Federal Government, rather, it is a 
shared responsibility. In exchange for absorbing some of these 
personnel costs, DHS will increase the amount of funding that goes to 
the State and local governments for training and exercises. If the 
State and local governments can reprioritize some of their monies to 
keep their personnel intact, then DHS will spend the funding freed up 
by that on training and exercises to make sure they are still capable 
of doing what DHS needs them to do. DHS feels that by imposing the 
personnel cap, the Department will be able to do more to build the 
capabilities of the States rather than weaken them.
    Question. I am very concerned about the state of the floodmap 
modernization program. I saw in your budget submission that almost $40 
million of fiscal year 2004 funds would be distributed this year. 
However, my home State of Vermont has received no funds thus far, and 
it appears that several of the state's grants requests have been acted 
upon very slowly if at all.
    You are asking for another $293 million this year for the program, 
yet I am beginning to question whether the benefits of this program are 
really flowing to the communities that need to update their maps, and I 
wonder whether the program is taking too broad an approach to be useful 
at the local level.
    Mr. Brown, can you please tell me specifically what this program is 
going to do for my home State of Vermont. Is FEMA going to stick to a 
verbal commitment made to the State to support its Fluvial Hazards Risk 
Assessment Initiative through Map Modernization funding opportunities? 
What is the status of Vermont's grant applications for other programs 
that will help prepare for flooding, such as the Pre-Disaster 
Mitigation program? Answer. FEMA's Mitigation Division administers two 
major programs that involve extensive coordination and planning with 
State and local officials--the Pre-Disaster Mitigation Program (PDM) 
and the Multi-Hazard Flood Map Modernization Program.
    FEMA's PDM fiscal year 2003 funds will be awarded on a competitive 
basis with a national priority on funding mitigation projects that 
address National Flood Insurance Program (NFIP) repetitive flood loss 
properties. The national evaluation of fiscal year 2003 PDM competitive 
grant applications submitted by the October 6th application deadline 
was completed on November 21, 2003. All projects funded under the PDM 
program must be cost-effective, consistent with environmental laws and 
regulations, and contribute to a long-term mitigation solution.
    The sub-applications identified for selection will be approved for 
funding in phases. We have approved a list of sub-applications 
identified as Phase I and Phase II. An application from North Troy, 
Vermont, The River Road Acquisition Project, is included in Phase II. 
FEMA's Region I staff soon will be contacting Vermont Emergency 
Management staff to discuss program and grants management requirements 
that must be addressed in order to make a final determination and to 
proceed with a grant award for this project. A final phase of PDM 
awards will follow later this spring. Because of the competitive nature 
of this program, details about the status of the remaining sub-
applications cannot be released until funding decisions are made. At 
that time, I will provide an update to you. In fiscal year 2003, 
Vermont also received a $248,275 non-competitive planning grant to help 
the State and its local communities protect lives and property by 
developing multi-hazard mitigation plans.
    In addition, we have a number of Hazard Mitigation Grant Program 
(HMGP) projects that address flood hazards underway in Vermont. FEMA 
recently obligated $233,575 for 13 projects and planning grants in 
various Vermont communities with HMGP funds made available after 
disaster declaration DR-1428-VT (severe storms and flooding, July 
2002). The final project to be awarded under DR-1428-VT is in Richford, 
Vermont. FEMA is providing $54,375 for a project to relocate the town's 
water main from a precarious location under the river where it is 
subject to damage from ongoing scouring. The U.S. Army Corps of 
Engineers is the lead agency on this project. We are waiting to review 
their environmental assessment and expect, if there are no problems, to 
obligate funds this spring. Vermont Emergency Management currently is 
soliciting applications for HMGP projects that will be funded following 
disaster declaration DR-1488-VT (severe storms and flooding, September 
2003).
    Under the Multi-Hazard Flood Map Modernization Program, FEMA has 
provided $800,000 to fund flood map updates for Windsor County, Windham 
County, Washington County, and the Towns of Hinesburg, Stowe, and West 
Rutland. FEMA plans to distribute preliminary versions of the updated 
flood maps for Windsor and Windham Counties and the three towns during 
this summer. FEMA will send these preliminary versions to community and 
county officials, State officials, and other key stakeholders to 
facilitate a thorough review. The study being performed for Washington 
County, which is still in the scoping phase, includes a component of 
the Fluvial Hazard Morphology initiative, specifically, riverine 
erosion assessment protocol and tools developed by the Vermont Agency 
of Natural Resources.
    The FEMA regional office staff in Boston has a regional business 
plan that describes its 5-year strategic plan for executing the Multi-
Hazard Flood Map Modernization Program. The Vermont Agency of Natural 
Resources has expressed an interest in taking some responsibility for 
managing local flood hazard data and is preparing its State business 
plan to identify the activities it desires to undertake and its 5-year 
flood map project priorities. FEMA will use this information to update 
the regional and National business plans for the Multi-Hazard Flood Map 
Modernization Program.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                emergency management performance grants
    Question. I am concerned about the Administration's budget cuts and 
policy changes to the Emergency Management Performance Grants. First, I 
disagree with the President's decision to move the grants from FEMA to 
the Office of Domestic Preparedness. No one in my State thinks this is 
necessary, and they are concerned that this diminishes the role and 
power of FEMA. FEMA was one of the most successful agencies to be 
folded into Homeland Security and it would be a shame if the Department 
undermined FEMA by taking away programs it handled well in the past. I 
think the Administration should avoid trying to fix grant programs that 
are not broken.
    In addition, not only is there $9 million less than last year for 
the grants, but the $170 million that is included in the President's 
budget will no longer fund all hazard planning. This is a real 
disappointment for county emergency managers in my state. They used 
these funds to help them prepare for terrorist attacks as well as 
natural disasters like floods and tornados. A reduction in funding, 
especially when adjusted for inflation, could force some counties to 
reduce staff as well as leave them unprepared for non-terrorism 
catastrophes.
    Why did the Administration reduce these funds, and why did they 
prohibit these funds from being used for all hazard planning?
    Answer. The Emergency Management Planning Grant Program provides 
vital support to the State and local emergency management system. The 
purpose of EMPG is to assist the development, maintenance, and 
improvement of State and local emergency management capabilities, which 
are key components of a comprehensive national emergency management 
system for disasters and emergencies that may result from natural 
disasters or accidental or man-caused events. At this time, the 
Administration's priority is assisting states in building capabilities 
for homeland security.
    These grants are a critical part of our homeland security efforts 
and an existing strength that must be maintained. The President's 
fiscal year 2005 request includes $170 million for continuation of this 
program, which is the most any administration has requested for this 
program. In fact, the fiscal year 2005 request is $20 million or more 
than 10 percent above the fiscal year 2004 request.
    The funding increase, and restriction on the amount of funds that 
can be used for salaries, will result in a more robust emergency 
planning and management system at the State and local effort.
    Follow up: The Administration has also decided to allow only 25 
percent of these grants to be used to pay personnel costs. The counties 
in my State have used these grants to hire people that facilitate 
disaster planning and help the local communities to make the best use 
of the State and Federal funds they receive. The emergency management 
community in my State has told me that this would force them to lay-off 
workers and planners, leaving them less prepared for any disaster. Will 
the Administration change its position on capping personnel costs, and 
if not, how do you expect the states and counties to continue to pay 
for this staff?
    Answer. The Administration's fiscal year 2005 request for the 
Emergency Management Planning Grants is $170 million, which is higher 
than any previous request for this program. The funds will be used to 
assist the development, maintenance, and improvement of State and local 
emergency management capabilities, with a focus on building local 
capabilities for homeland security.
    As you note, though, the request does cap the amount that states 
can use for salaries, thereby significantly increasing the amount of 
funds available for planning, training and exercises. The 
Administration's budget request still allows for award funds to support 
salaries. The request shifts the emphasis to Federal support for 
planning while properly aligning responsibility for staffing and 
salaries with the states and local governments. The Administration and 
Department have consistently supported the idea that homeland security 
is a shared responsibility between Federal and State and local 
governments. Additionally, it is important to remember that we are 
operating in a fiscal and security environment where we must ensure 
maximum security benefits are derived from every security dollar. To do 
that, we must be able to take a new look at the way in which we 
allocate resources, including sharing financial responsibility with our 
State and local partners.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Our next hearing on the budget request for 
the Department of Homeland Security will be held on Tuesday, 
March 2, in this same room. At that time, the Under Secretary 
for Science and Technology, Dr. Charles McQueary, and the Under 
Secretary for Information Analysis and Infrastructure 
Protection, Mr. Frank Libutti, will be here to discuss the 
budget for the programs under their jurisdiction.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 11:10 a.m., Thursday, February 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
March 2.]

</pre></body></html>
